<html>
<title> - COMPREHENSIVE IMMIGRATION REFORM: THE FUTURE OF UNDOCUMENTED IMMIGRANT STUDENTS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
COMPREHENSIVE IMMIGRATION REFORM: THE FUTURE OF UNDOCUMENTED IMMIGRANT 
                                STUDENTS
=======================================================================



                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                CITIZENSHIP, REFUGEES, BORDER SECURITY,
                         AND INTERNATIONAL LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 18, 2007

                               __________

                           Serial No. 110-36

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE

35-453 PDF                 WASHINGTON DC:  2006
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

          Subcommittee on Immigration, Citizenship, Refugees, 
                 Border Security, and International Law

                  ZOE LOFGREN, California, Chairwoman

LUIS V. GUTIERREZ, Illinois          STEVE KING, Iowa
HOWARD L. BERMAN, California         ELTON GALLEGLY, California
SHEILA JACKSON LEE, Texas            BOB GOODLATTE, Virginia
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      J. RANDY FORBES, Virginia
WILLIAM D. DELAHUNT, Massachusetts   LOUIE GOHMERT, Texas
LINDA T. SANCHEZ, California
ARTUR DAVIS, Alabama
KEITH ELLISON, Minnesota

                    Ur Mendoza Jaddou, Chief Counsel

                    George Fishman, Minority Counsel


                            C O N T E N T S

                              ----------                              

                              MAY 18, 2007

                           OPENING STATEMENT

                                                                   Page
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     1
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa, and Ranking Member, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law..     3
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     5

                               WITNESSES

Ms. Marie Nazareth Gonzalez, Westminster College, Class of 2009
  Oral Testimony.................................................     8
  Prepared Statement.............................................     9
Ms. Martine Mwanj Kalaw, Hamilton College, Class of 2003, The 
  Maxwell School of Citizenship and Public Affairs, Syracuse 
  University, Class of 2004
  Oral Testimony.................................................    11
  Prepared Statement.............................................    13
Ms. Tam Tran, University of California, Los Angeles, Class of 
  2006
  Oral Testimony.................................................    14
  Prepared Statement.............................................    15
Ms. Diana Furchtgott-Roth, Senior Fellow and Director, Center for 
  Employment Policy, Hudson Institute
  Oral Testimony.................................................    31
  Prepared Statement.............................................    32
Mr. Allan Cameron, Ph.D., retired High School Computer Science 
  Teacher, Carl Hayden High School, Phoenix, AZ
  Oral Testimony.................................................    36
  Prepared Statement.............................................    37
Mr. Jamie P. Merisotis, President, Institute for Higher Education 
  Policy
  Oral Testimony.................................................    38
  Prepared Statement.............................................    40
Mr. Kris W. Kobach, Ph.D., Professor of Law, University of 
  Missouri--Kansas City School of Law
  Oral Testimony.................................................    42
  Prepared Statement.............................................    44

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Chairwoman, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................     2
Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Chairman, Committee on the Judiciary...........................     5
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................     6

                                APPENDIX
               Material Submitted for the Hearing Record

``AP Impact: Immigration raids split families,'' by Monica Rhor, 
  Associated Press Writer, March 11, 2007, submitted by the 
  Honorable Sheila Jackson Lee...................................    60
Prepared Statement of Marie-Theresa Hernandez, Ph.D., Associate 
  Professor, Department of Modern and Classical Languages, World 
  Cultures and Literatures, University of Houston................    63
``New Estimates of Unauthorized Youth Eligible for Legal Status 
  under the DREAM Act,'' by the Migration Policy Institute.......    72


COMPREHENSIVE IMMIGRATION REFORM: THE FUTURE OF UNDOCUMENTED IMMIGRANT 
                                STUDENTS

                              ----------                              


                          FRIDAY, MAY 18, 2007

                  House of Representatives,
Subcommittee on Immigration, Citizenship, Refugees, 
             Border Security, and International Law
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:10 a.m., in 
Room 2141, Rayburn House Office Building, the Honorable Zoe 
Lofgren (Chairwoman of the Subcommittee) presiding.
    Present: Representatives Lofgren, Berman, Jackson Lee, 
Delahunt, Sanchez, King, Lungren, and Gohmert.
    Also Present: Representative Conyers.
    Staff Present: Ur Mendoza Jaddou, Chief Counsel; J. Traci 
Hong, Minority Counsel; Benjamin Staub, Professional Staff 
Member; and George Fishman, Minority Counsel.
    Ms. Lofgren. This hearing of the Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and 
International Law will come to order. I would like to welcome 
the Immigration Subcommittee Members, our witnesses and members 
of the public who are here today for the Subcommittee's 
eleventh hearing on comprehensive immigration reform.
    I would like to particularly welcome our first panel of 
witnesses--courageous young people, willing to be here today to 
talk about their own personal experiences and to help us learn 
about the problems faced by undocumented children. I commend 
you for your courage and willingness to be with us.
    Our series of hearings on comprehensive immigration reform 
began at Ellis Island where we examined the need for 
comprehensive immigration reform to secure our borders, address 
economic and demographic concerns, and there we reviewed our 
Nation's rich immigrant history. We have studied immigration 
reform from 1986 and 1996 in an effort to avoid the mistakes of 
the past. We have considered the problems with the proposed 
solutions for our current employment and worksite verification 
system. In light of recent proposals by the White House to 
eliminate family priorities in immigration and replace them 
with a new and untested point system, we studied the 
contributions of family immigrants to America and various 
immigration point systems used around the world. This week, we 
had an opportunity to explore the importance of immigrant 
integration and their children into the United States, and just 
yesterday, we explored the costs of immigration on our States 
and localities.
    Today's topic on comprehensive immigration reform, the 
future of undocumented immigrant students, is one area the 
Democrats and Republicans agree must be fixed. As our witnesses 
on the first panel will personally describe, they had no choice 
in being brought to the United States at a young age. Now they 
are young adults who feel like young Americans but without the 
same doors and opportunities that most of us had at their age. 
While the future is bright for their peers graduating from high 
school and preparing for college across the country this month, 
for undocumented students, it is a future filled with 
uncertainty.
    They face colleges and universities requiring documentation 
of legal status, prohibitively high tuition rates, and no 
chance for Federal financial aid for higher education. Even if 
they work hard and finish college, they must confront a bleak 
future in which they are unlikely to be able to work in 
professions for which they have trained because of their 
immigration status. Worse yet, they cope with the spector of 
deportation at any moment. If these young people get deported, 
many end up in birth countries they have no memory of, a 
country they hardly remember, and speaking only English. These 
determined and dedicated young people need the chance to become 
productive members of our society. They never had a choice in 
their situation. Yet, our law blames them for it and makes them 
pay a heavy price.
    Fairness and justice have always been hallmarks of our 
great Nation. We should not penalize innocent children for the 
actions of their parents. Furthermore, our Nation is faced with 
ever increasing economic competition from developed and 
developing nations. To effectively compete in an ever expanding 
global market, we must ensure that we can continue to have the 
most educated workforce in the world. Whether in college or in 
the military, we must give all qualified young people the 
opportunity to contribute in ways that will keep America 
strong.
    It is time for this Congress to recognize the compelling 
economic, moral, and humanitarian concerns by providing these 
undocumented young people a way to a bright future.
    [The prepared statement of Ms. Lofgren follows:]
 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Chairwoman, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law
    I would like to welcome the Immigration Subcommittee Members, our 
witnesses, and members of the public to the Subcommittee's twelfth 
hearing on comprehensive immigration reform. I would like to 
particularly welcome our first panel of witnesses, courageous young 
people willing to be here today to talk about their own personal 
experiences and help us learn about the problems faced by undocumented 
children. I commend you for your courage and willingness to be with us.
    Our series of hearings on comprehensive immigration reform began at 
Ellis Island, where we examined the need for comprehensive immigration 
reform to secure our borders, to address economic and demographic 
concerns, and there we reviewed our nation's rich immigrant history. We 
have studied immigration reform from 1986 and 1996 in an effort to 
avoid the mistakes of the past. We've considered the problems with and 
proposed solutions for our current employment and worksite verification 
system. In light of recent proposals by the White House to eliminate 
family priorities in immigration and replace them with a completely new 
and untested point system, we studied the contributions of family 
immigrants to America and various immigration point systems used around 
the world. This week, we had a hearing to explore the importance of 
immigrant integration and their children into the United States. And 
just yesterday, we explored the costs of immigration on our states and 
localities.
    Today's topic on comprehensive immigration reform--the future of 
undocumented immigrant students--is one area that Democrats and 
Republicans alike agree must be fixed. As our witnesses on the first 
panel will personally describe, they had no choice in being brought to 
the U.S. at a young age. Now they are young adults who feel like young 
Americans, but without the same open doors and opportunities that most 
of us had at their age.
    While the future is bright for their peers graduating from high 
school and preparing for college across the country this month, for 
undocumented students, it's a future filled with uncertainty. They face 
colleges and universities requiring documentation of legal status, 
prohibitively high tuition rates, and no chance for federal financial 
aid for higher education.
    Even if they work hard and finish college, they confront a bleak 
future in which they are unlikely to be able to work in professions for 
which they have trained, because of their immigration status.
    Worse yet, they cope with the specter of deportation at any moment. 
If these young people get deported, many end up in birth countries they 
have no memory of, a country they hardly remember, and speaking only 
English.
    These determined and dedicated young people need the chance to 
become productive members of our society. They never had a choice in 
their situation. Yet, our law blames them for it and makes them pay a 
heavy price. Fairness and justice have always been hallmarks of our 
great nation. We should not penalize innocent children for the actions 
of their parents.
    Furthermore, our nation is faced with ever increasing economic 
competition from developed and developing nations. To effectively 
compete in an ever expanding global market, we must ensure that we 
continue to have the most educated workforce in the world. Whether in 
college or in the military, we must give all qualified young people the 
opportunity to contribute that will keep America strong.
    It is time for this Congress to recognize this compelling, 
economic, moral and humanitarian concern by providing these 
undocumented young people a way to a bright future.

    Ms. Lofgren. I will now recognize our distinguished Ranking 
minority Member, Steve King, for his opening statement.
    Mr. King. Thank you, Madam Chair. I appreciate your holding 
this hearing, and I appreciate the witnesses who are here to 
testify today. I had an opportunity to at least meet our first 
panel, and I would reflect that, often, we legislate by 
anecdote here in this Congress as opposed to taking a look at 
the broader statistical data that tells us where society might 
go if we move forward on pieces of policy.
    I also reflect there is an existing law passed in 1996 that 
was authored by our Ranking Member of the Judiciary Committee, 
Lamar Smith of Texas, that requires that if a higher education 
institution grants an in-state tuition discount to someone who 
is unlawfully present in the United States, they shall grant 
that same in-state tuition discount to all citizens of the 
United States who otherwise qualify, wheresoever they might 
live.
    If we do not adhere to that law, then we are granting a 
status for those who are unlawfully present in the United 
States a tuition discount that is greater and disproportional 
to that of a citizen who might live in another State. For 
example, my daughter-in-law grew up in the Mississippi River 
bottom, farmed right up next to the river--her father did--
within sight of Iowa, and went to school in Iowa at Iowa State, 
but those of her circumstances were not qualified for in-state 
tuition. They had to pay the higher rate.
    Yet, in some of those circumstances in States around the 
Union, in a number of States, the discount is provided to those 
who are unlawfully present, and those who wanted to go to that 
same institution who did not happen to live, perhaps, in that 
State paid a premium, and I will submit that that is an 
inequity.
    I am watching as piece after piece of legislation comes 
through this Judiciary Committee and through other Committees 
here on the Hill that set up a special protected status, 
different levels of citizenship, disadvantages for citizens who 
live in the United States who--they and their parents--
presumably pay taxes and are engaged in the responsibilities of 
citizenship, and puts them at a disadvantage. All of our hearts 
go out to people who are not in control of their own destiny, 
and I recognize that the witnesses here before us on this panel 
represent that cross-section of those who are not in control of 
their own destiny.
    By the same token, the United States of America needs to be 
in control of its destiny as well. I look across the Hill to 
the Senate side, and as we are putting together the pieces of 
what they talked about yesterday--and we have very little text 
of any language, just concepts that were rolled out in the 
press conference yesterday--it becomes clear that at least that 
coalition is determined to provide a broad amnesty plan. It 
cannot be called anything else, and anyone who can claim that 
they came into the United States prior to January 1st of 2007 
would get a provisional legalization until such time as they 
could figure out how to make it a little bit more formal and a 
path to citizenship for almost everyone who can claim they were 
in the United States.
    So the questions that do not get answered here in this 
Committee but are out in the public debate sphere, and not by 
our President, I might add, are:
    What should the population of the United States be in 25 
years or 50 years? Who should be allowed to come to the United 
States, and who should be sent back to the country of their 
origin? If the Nation is not willing to send someone home who 
is unlawfully here, how in the world can they claim they have a 
border or have an immigration policy whatsoever? Should that 
immigration policy be set by people who come here illegally and 
the mass of those numbers weighs on our consciences so much 
that we are willing to sacrifice the essential pillar of 
American civilization, American exceptionalism, called the 
``rule of law''? Because that is what the Senate is poised to 
do.
    The Senate is poised to sacrifice the rule of law because 
they cannot find it in their hearts to look someone in the eye 
and say, ``I am sorry. The rule of law is more important. 
Everybody has a certain cross to bear, but we have an 
obligation to the destiny of the United States of America, and 
we need to move it to a higher destiny, not a lower destiny.'' 
That is not an indictment of the ladies who are here in front 
of us today. That is a statement of the essential pillar of 
American exceptionalism that I fear will collapse under the 
weight of the policy that was advocated in the Senate 
yesterday.
    So, with that and with that in mind, I am looking forward 
to hearing the testimony from the witnesses before us today.
    Madam Chair, I yield back the balance of my time.
    Ms. Lofgren. The gentleman yields back.
    I am pleased to recognize the Chairman of the full 
Committee, Chairman John Conyers, for his opening statement.
    Mr. Conyers. Thank you very much, Madam Chair.
    I rise in defense of President George Bush's position on 
immigration, which he will be shocked and hopefully pleased to 
know that we do have one point of agreement.
    I ask the question, though, back to our friend from Iowa. 
Well, what should we do with the children after we look them in 
the eye? Who makes the rule of law? I thought we were all 
weighing in on it and that it was not some permanent static set 
of rules. So I join in the notion that the DREAM Act concept of 
Howard Berman's and this creating a pathway toward assimilation 
is a pretty good start for mutually putting together a reform 
package for youngsters where, if they prove themselves to be 
good students, who participate in some concept of national 
service, we could work our way through them because they are, 
in a way, the best citizens in a family in which they are 
helping their parents and the community get the idea of what 
this is all about. They learn English first.
    So I want to hear from them, and I think this is an 
excellent part of our series of hearings that Chairwoman 
Lofgren has constructed thus far.
    I thank you for the time.
    Ms. Lofgren. Thank you, Chairman Conyers.
    [The prepared statement of Mr. Conyers follows:]
Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary
    Today we explore how we can transition undocumented children out of 
the shadows and into being full members of our society.
    The DREAM Act would give these young people an opportunity to 
become permanent residents if they graduate from high school and 
continue on to college or serve in the military.
    We should all be able to agree that children should not be punished 
``for the sins of the fathers.'' Adult undocumented immigrants can be 
normalized through a system that includes financial penalties, but 
children are different. We should not punish them for their parents' 
illegal entry, but should instead reward them when they succeed.
    All of us have already agreed in a previous hearing that we want to 
provide incentives for people to acquire American values and culture. 
And the pathway to assimilation for most immigrants is through their 
children.
    They are the ones who first learn English. They are the ones who 
learn American history and culture from school and their friends. It is 
our history and culture that they think of as theirs. And they are the 
ones who help their parents navigate bureaucracies, health care, and 
jobs.
    In other words, these children are--to use one of our earlier 
witness' terms--Americanized. The law should recognize and encourage 
this dynamic.
    Instead of deporting these Americanized children away to a ``home'' 
they know little about, a number of people, especially Mr. Berman, have 
made a modest proposal: incorporate these children into our national 
fabric; and reward education and national service. These concepts just 
make good common sense.
    I welcome the students who are here to testify before the 
Subcommittee and the experts who can give us some academic context. The 
students' voices are critically important as we weigh our policy 
options and political realities.

    Ms. Lofgren. Without objection, all Members of the 
Subcommittee will be invited to place their opening statements 
in the record, and I especially appreciate the willingness of 
all Members to do that since we have the author of the DREAM 
Act here on our panel, Mr. Berman, who has helped us so much in 
putting our legislative efforts together, and we have been 
following him on that. We have two distinguished panels of 
witnesses here today to help us consider the important issues 
before us.
    [The prepared statement of Ms. Jackson Lee follows:]
       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
 Subcommittee on Immigration, Citizenship, Refugees, Border Security, 
                         and International Law
    Today we continue these series of hearings dealing with 
comprehensive immigration reform. This subcommittee previously dealt 
with the shortfalls of the 1986 and 1996 immigration reforms, the 
difficulties employers face with employment verification and ways to 
improve the employment verification system. On Tuesday May 1, 2007 we 
explored the point system that the United Kingdom, Canada, Australia, 
and New Zealand utilize, and on May 3, 2007 the focus of the discussion 
was on the U.S. economy, U.S. workers and immigration reform. Last week 
we took a look at another controversial aspect of the immigration 
debate, family based immigration. Today we continue the vital task of 
eliminating the myths and seeking the truth. Wednesday's hearing dealt 
with probably the most crucial aspect underlying the immigration 
debate, an immigrant's ability to integrate, and assimilate into 
American society. Yesterday we tackled another pressing topic, the 
practical issue of the impact of immigration on States and Localities. 
Today we will discuss the issue of the ``Future of Undocumented 
Immigrant Students.''
    I want to thank Chairwoman Lofgren for holding this very thoughtful 
hearing. The plight of undocumented immigrant students is an aspect of 
the immigration debate that seems to fly under the radar. Naturally the 
discussion is about adults, but again I remind my colleagues that this 
discussion is also about human beings first and foremost, humans with 
families and children.
    We have seen the impact that recent raids in New Bedford have had 
on their families. Despicable stories of toddlers being left behind at 
daycare centers, this is an absolute nightmare. In certain situations 
the lucky few may have an older teenage sibling who can look after 
them, and that is the best case scenario.
    We talk about 12 million undocumented workers, but they have kids 
approximately 1.8 million undocumented immigrant students. Allow me to 
digress for a moment and emphasize why I have strong reservations, and 
felt utter disappointment when I heard about the Senate comprehensive 
immigration reform agreement that came out yesterday. The fact that 
they propose a change from a family based system, to a point system 
contradicts the very values that formulate the bedrock of American 
culture. Have we let go of the values that make this country great? 
Have my colleagues on the other side of the aisle abandoned the mantra 
of family values?
    Madam Chairwoman again I am so appreciative of the fact that you 
had the foresight to hold this hearing because the children of these 12 
million undocumented workers will remember the actions of this 110th 
Congress, and the tone of the entire debate. Were we compassionate, 
reasonable, and judicious?
    With regards to the plight of undocumented immigrant students I 
will make two points. First, as many witnesses at past hearings have 
repeatedly articulated, our nation can only benefit from a body of 
individuals who extend their education beyond high-school. Second I am 
reminded of a recent Houston chronicle article that highlighted the 
plight of students who live in Mexico, but attend school here in the 
United States. Do they not share our values of education? These kids 
yearn to learn English, if it is not their first language already, so 
they can be full participants in our society. I look forward to the 
testimony of our student witnesses, familiar faces that have diligently 
appeared at these hearings on comprehensive immigration reform over the 
last several weeks.
    These students face a host of issues that are really no fault of 
their own. These kids are unable to work legally, to participate in any 
other activities that require a social security number, to travel 
abroad, to obtain a drivers license in most states, to obtain any 
federal financial assistance for post-secondary education, or even, in 
most states, to attend college or university at the in-state tuition 
rates that their U.S. citizen and legal immigrant classmates pay. If 
brought to the attention of U.S. Immigration and Customs Enforcement 
(ICE), they can--and often are--deported to countries that they may 
barely remember. Our current immigration system does not have any 
mechanism for recognizing or taking into account these circumstances. 
Neither the Department of Homeland Security nor immigration judges have 
discretion to permit young people who were brought to the U.S. as 
children and who have grown up here and assimilated to our way of life 
to adjust to lawful permanent residence (LPR) status. Nor, under 
current law, are most of the young people themselves able to apply for 
LPR status on their own behalf, regardless of the age they were brought 
here or the contribution they could make if permitted to remain 
legally.
    However, these children are as American as apple pie. My 
immigration legislation, the Save Act addresses the concerns of those 
who would think otherwise. The Save Act requires immigrant children to 
reside here for five years, show complete integration into the life and 
culture of the United Sates, learned the English language, pursue an 
appropriate age level education, and perform community service hours. 
Education, English language proficiency, and a commitment to community 
are probably qualities that many of these children already have, and 
naturally embrace as individuals who were raised here in the United 
States.

    I would like to extend a warm welcome to Marie Gonzalez, a 
member of Westminster College's Class of 2009. Ms. Gonzalez was 
born in Costa Rica and came to the United States when she was 5 
years old with her family. Raised in Jefferson City, Missouri, 
she graduated with honors from Helias High School, one of 
Missouri's top secondary schools. She was a member of the 
National Honor Society, the Foreign Language Club, the tennis 
team, and the track team. She also volunteered extensively for 
the VITAE Society and the youth group at her church. She was 
recently chosen by Latina Magazine as one of their ``Women of 
the Year.''
    I am also pleased to introduce Martine Kalaw, a graduate of 
Hamilton College and Syracuse University. Ms. Kalaw was born in 
Lusaka, Zambia. After relocating to the Democratic Republic of 
the Congo, Ms. Kalaw came to the United States with her mother. 
After the death of her stepfather and her mother when she was 
15, Ms. Kalaw came to study at St. Anne's Belfield School in 
Charlottesville, Virginia. She excelled at St. Anne's, and she 
earned a scholarship to Hamilton College in New York. 
Graduating in 1993 with a concentration in Political Science, 
Ms. Kalaw next received her master's in Public Policy 
Administration from the Maxwell School for Citizenship and 
Public Affairs at Syracuse University. She now works as a 
financial analyst for the New York Public Library in New York 
City.
    Finally, I am pleased to welcome Tam Tran to our hearing, a 
graduate in the Class of 2006 at the University of California, 
Los Angeles. Born in Germany after she and her parents fled 
Vietnam, Ms. Tran's family came to the United States to reunite 
with their family. In December, Ms. Tran graduated from UCLA 
with a degree in American Literature and Culture with college, 
departmental, and Latin honors. She now works as a full-time 
film editor and videographer. She has also been accepted to a 
Ph.D. program in Cultural Studies at UCLA.
    Each of you have a written statement which I have read and 
have found extremely powerful. Those statements in their 
entirety will be made part of the record of this hearing. We 
ask that you summarize your testimony in about 5 minutes, and 
when you have 1 minute left, the little machine there on the 
table will switch to yellow. So we ask that you try and stay 
within the 5 minutes. We will not be throwing the gavel at you, 
however, if you need a few minutes to wrap up. Then after you 
have all testified, we will, each of us, have an opportunity to 
pose some questions to you.
    Ms. Lofgren. So, if we could start, Ms. Gonzalez, with you.

             TESTIMONY OF MARIE NAZARETH GONZALEZ, 
               WESTMINSTER COLLEGE, CLASS OF 2009

    Ms. Gonzalez. Good morning and thank you.
    Like you said, my name is Marie Nazareth Gonzalez. I am 21 
years old, and I am a junior from Jefferson City, MO, currently 
attending Westminster College in Fulton, MO. I am majoring in 
Political Science and International Business with a focus on 
communication and leadership. My family is originally from 
Costa Rica. I was born in Alajuela, Costa Rica, but have been 
living in the U.S. since the age of 5. My parents, Marvin and 
Marina, brought me to the United States in November 1991. 
Having come over legally, their plan was to become U.S. 
citizens so we could one day all benefit from living in the 
land of the free. We sought to live the American dream--the 
promise of a better education, a better life and, altogether, a 
better future, what any parent would want for their child.
    Strong values and good morals have been instilled in me 
from a very young age. As long as I can remember, my parents 
have worked very hard for every dollar that they have earned 
and, in the process, have taught me that life is not easy, and 
I must work hard and honorably for what I want in life.
    In April of 2002, after an anonymous person called the 
Governor's office, where my father was working, our immigration 
status came into question. Later on, it was confirmed that we 
were undocumented. From that day forward, my life became a haze 
of meetings with attorneys, hearings, and rallies. When they 
heard what we were facing, deportation, the community that knew 
us in Jefferson City rallied behind my family and me to an 
overwhelming degree. They knew that we were hardworking, 
honorable, taxpaying people, and they fought to allow us to 
stay in the United States.
    Members of our Catholic parish, where my mom worked as a 
volunteer Spanish teacher and after-school care director, 
joined with other community members to form the Gonzalez Group 
to rally support by collecting signatures, petitions and 
organizing phone calls. My classmates, teachers and others also 
got involved because they considered me to be an important part 
of their community.
    I became involved in advocacy for the DREAM Act right after 
my senior year of high school. Unlike thousands of others like 
me who would benefit from the DREAM Act, I had little to fear 
from speaking out since I was already facing deportation. When 
I was asked to give the valedictorian speech at the mock 
graduation in front of the Capitol, I became a national symbol 
for the DREAM Act.
    Eventually, all of the work of so many people on my behalf 
began to pay off. My representative--Ike Skelton--and both of 
my senators--Mr. Jim Talent and Mr. Kit Bond--responded to the 
support from the community. They got involved in the effort to 
keep me here. Eventually, though, all of our appeals were 
exhausted, and a final date was set for my family to leave the 
country, July the 5th of 2005. I appeared on national 
television--once with Senator Durbin at my side--and was 
contacted by the media so often that I got tired of it. I 
thought, even if it is too late for me, it might help someone 
else, and it might help the DREAM Act pass.
    On July the 1st of 2005, I got word that the Department of 
Homeland Security would allow me to stay and defer my departure 
for 1 year.
    My life since April of 2002 can be easily compared to a 
roller coaster. There have been times when I have felt like I 
was on top of the world, living out my and my parents' dream of 
being a successful young woman in college, only to be brought 
down by the realization that it can be taken away at any 
moment. The deferral of my deportation has been renewed twice, 
each time for a year. Last month, when they gave me until June 
of 2008, they told me it would be my last renewal. If the DREAM 
Act does not pass by then, I will have to leave, and I will not 
be able to graduate from college.
    I am only one student and one story. In the course of 
fighting to remain here, I have been lucky to meet many other 
students who would also benefit from the DREAM Act. Unlike 
them, I can speak about this issue in public without risking 
deportation. I share with them in their fear and their pain and 
uncertainty. I can personally attest to how life in limbo is no 
way to live. I have been torn apart from my parents for almost 
2 years and have been struggling to make it on my own. I know 
what it is like to face difficulty and how hard it is to fight 
for your dreams. No matter what, I will always consider the 
United States of America my home. I love this country. Only in 
America would a person like me have the opportunity to be 
standing in front of you. Many may argue that, because I have a 
Costa Rica birth certificate, I am Costa Rican and should be 
sent back, but I tell you I do not feel that way. I hope one 
day not only to be a U.S. citizen, but to go to law school and 
to live in D.C. and to continue advocating for others who 
cannot speak for themselves. Whether that will happen, though, 
is up to you, our Nation's leaders, and to God.
    Thank you.
    Ms. Lofgren. Thank you very much.
    [The prepared statement of Ms. Gonzalez follows:]
             Prepared Statement of Marie Nazareth Gonzalez
    Good morning. My name is Marie Nazareth Gonzalez. I am a 21 year 
old junior from Jefferson City, Missouri currently attending 
Westminster College in Fulton, Missouri. I'm majoring in Political 
Science and International Business with a focus on communication and 
leadership.
    My family is originally from Costa Rica. I was born in Alajuela, 
Costa Rica but have been living in the United States since the age of 
five. My parents Marina and Marvin, brought me to the United States in 
November of 1991. Having come over legally, their plan was to become US 
citizens so we could one day all benefit from living in the land of the 
free. We sought to live the ``American Dream''--the promise of a better 
education, a better life, and all together a better future--what any 
parent would for their child.
    Strong values and good morals have been instilled in me from a very 
young age. As long as I can remember my parents have worked very hard 
for every dollar they've earned, and in the process have taught me that 
life is not easy and that I must work hard and honorably for what I 
want in life. That is exactly what they did. When they came to the US 
they had no intention of breaking the law, or of making an exception 
for themselves. Unfortunately, the law is very difficult and complex. I 
am not making excuses for what happened, just trying to clear my 
family's name. Throughout all our years in the United States we worked 
very hard for what we had, thinking that one day soon we would be 
citizens.
    On April of 2002 our family's dream of becoming citizens was halted 
by a phone call. My father had been working for the state as a courier 
for the Governor's Office. The job was not prestigious in any way, but 
my father was very devoted to his job and was loved and respected by 
his co-workers. On one occasion the governor even publicly stated his 
appreciation for my dad while he was making opening remarks at an event 
for Missouri high school sophomores that I attended.
    All of that ended after an anonymous person called the governor's 
office requesting that our immigration status be confirmed. From that 
day forward, my life became a haze of meetings with attorneys, 
hearings, and rallies.
    When they heard that we were facing deportation, the community that 
knew us in Jefferson City rallied behind my family and me to an 
overwhelming degree. They knew we were hardworking, honorable, 
taxpaying people, and they fought to allow us to stay in the US. 
Members of our Catholic Parish--where my mom worked as a volunteer 
Spanish teacher and after school care director--joined with other 
community members to form the ``The Gonzalez Group'' to rally support 
by collecting signatures for petitions and organizing phone calls. My 
classmates, teachers and others also got involved because they 
considered me an important part of their community.
    I was in high school at the time, with graduation quickly 
approaching. I was in my class's homecoming court. When it came out in 
the newspaper that I was being deported to a country I had not known 
since the age of five, people all across the country responded. They 
started a ``We Are Marie'' campaign, and tens of thousands called and 
wrote letters on my behalf. When I was a high school senior and our 
family's deportation date was looming very close, they brought me to 
Washington, DC.
    I got involved in advocacy for the DREAM Act. Unlike thousands of 
others like me who would benefit from the DREAM Act, I had little to 
fear from speaking out since I was already facing deportation. When I 
gave the ``valedictorian'' speech at a mock graduation in front of the 
Capitol, I became a national symbol of the DREAM Act.
    Eventually all of the work of so many people on my behalf began to 
pay off. My Representative, Ike Skelton, and both of my Senators, Jim 
Talent and Kit Bond, responded to the support from the community and 
got involved in the effort to keep me here. Eventually, though, all of 
our appeals were exhausted and a final date was set for our family to 
leave the US for good: July 5, 2005.
    I remember that the weeks before that date were surreal. I was 
overwhelmed by the support I received. I appeared on national 
television, once with Senator Richard Durbin at my side, and was 
contacted by the media so often that I got tired of it. I thought, 
``even if it is too late for me, at least it might help the DREAM Act 
to pass so that others like me won't have to face this ordeal.'' Then, 
on July 1, 2005, I got word that the Department of Homeland Security 
had relented and would allow me to defer my departure for one year.
    When I got that news I cried--simultaneously with happiness and 
grief. Even though I would be able to stay, my parents would have to 
leave in just three days. The Gonzalez Group had made shirts and 
organized a float for the Fourth of July parade. So, the day before 
their departure, my parents and I rode in the parade with other members 
of the group that had been such a huge part of our family. Hundreds 
cheered us on and voiced their support and sorrow.
    My life since April of 2002 can be easily compared to a roller 
coaster. There have been times when I have felt like I was on top of 
the world, living out mine and my parent's dream of being a successful 
young woman in her college career, only to be brought down by the 
realization that at any moment it can be taken away. The deferral of my 
deportation has been renewed twice, each time for a year. Last month, 
when they gave me until June of 2008, they told me it would be the last 
renewal. If the DREAM Act does not pass by then, I will have to leave.
    I recognize that I am lucky to have been allowed to stay as long as 
I have. Others in my same situation have not had nearly the support 
that I have. Even so, it is hard not knowing if I will be able to 
remain in school at Westminster long enough to graduate.
    I am only one student and one story. In the course of fighting to 
remain here, I have been lucky to meet many other students who would 
benefit from the DREAM Act, and one of the reasons I wanted to come 
here and testify is to speak to you on their behalf. Unlike them, I can 
speak about this issue in public without risking deportation. I share 
with them in their pain, fear, and uncertainty. Their stories are 
heartbreaking and similar. In my experiences and my travels I have come 
to the realization that they would only be an asset to the country if 
only given the chance to prove themselves. The DREAM Act has the 
potential to not only impact the thousands of students who would 
qualify but also this great nation by allowing these students to pursue 
their education and their dreams of success.
    I can personally attest to how life in limbo is no way to live. 
Having been torn apart from my parents for almost two years and 
struggling to make it on my own, I know what it is like to face 
difficulty and how hard it is to fight for your dreams. No matter what, 
I will always consider the United States of America my home. I love 
this country. Only in America would a person like me have the 
opportunity to tell my story to people like you.
    Many may argue that because I have a Costa Rican birth certificate 
I am Costa Rican and should be sent back to that country. If I am sent 
back there, sure I'd be with my mom and dad, but I'd be torn away from 
loved ones that are my family here, and from everything I have known 
since I was a child.
    I hope one day not only to be a US citizen, but to go to law school 
at Mizzou, to live in DC, and to continue advocating for others who 
can't speak for themselves. Whether that will happen, though, is up to 
you--our nations leaders--and to God.

    Ms. Lofgren. Next, we will hear from Ms. Kalaw.

 TESTIMONY OF MARLINE MWANJ KALAW, HAMILTON COLLEGE, CLASS OF 
  2003, THE MAXWELL SCHOOL OF CITIZENSHIP AND PUBLIC AFFAIRS, 
               SYRACUSE UNIVERSITY, CLASS OF 2004

    Ms. Kalaw. Good morning.
    My name is Martine Mwanj Kalaw. I am a proud New Yorker, 
employed as a financial analyst with the New York Public 
Library, and prior to that, I was a budget analyst at the New 
York City Mayor's Office of Management and Budget. Although I 
have lived in the United States for 22 years, I have an 
immigration nightmare I would like to share with you.
    In August of 2004, I was ordered deported. My mother 
brought me to the United States on a tourist visa from the 
Democratic Republic of the Congo when I was 4 years old. She 
fell in love with and married my stepfather when I was 7 years 
old. When I was 12, my stepfather died, and when I was 15, my 
mother died. My mother had been granted a green card, and was 
in the process of applying for permanent U.S. citizenship at 
the time of her death. However, neither she nor my stepfather 
filed papers on my behalf. Thus, when my mother and stepfather 
died 11 years ago, I was left not only without parents but 
without a path to citizenship.
    Although I had no home, I was able to excel through my 
academic performance and through self-parenting. I attended 
prep school in Charlottesville, Virginia with the assistance of 
a judge who acted as my benefactor. After graduating from St. 
Anne's Belfield School, I attended Hamilton College, in upstate 
New York, on a scholarship and graduated in 2003 with a 
concentration in Political Science. All of this time, I knew 
that I had immigration problems, but it was not until I was in 
college that I came to fully understand the extent of those 
problems. I needed a new Social Security card in order to 
secure a part-time job on campus, but when I naively went to 
the Social Security Administration for the card, they referred 
me to INS.
    The next thing I knew, I was in deportation proceedings. 
That is when my nightmare began. I persevered while my case was 
pending despite the looming prospect--my removal to country in 
Africa where I would not be fully accepted and do not know the 
language. Soon after college graduation, I was a recipient of 
the Margaret Jane White full scholarship, which allowed me to 
graduate with a master's in public administration from the 
Maxwell School of Citizenship and Public Affairs at Syracuse 
University in 2004. Academia became my security blanket that 
allowed me to be something other than that scarlet letter ``I'' 
for illegal immigrant. Despite my academic record, I can not 
escape the stifling nature of my immigration status and have 
therefore been unable to fully explore my full potential.
    My experience foreshadows what happens to immigrant 
students if legislation is not adopted to squarely address our 
status. We will be left in limbo with a lot to give back to 
America but without provisions that would allow us to do so. 
While I have been uplifted by the U.S. educational system, I 
have also been marginalized by the U.S. immigration system.
    In 2006, I met other potential DREAM Act beneficiaries who, 
like me, were facing deportation. They included Dan-el Padilla, 
who graduated second in his class from Princeton University 
last year; and another young man who finished law school at 
Fordham University; a third boy--a sweet and bookish teenager 
and honor student--talked about how it felt when the 
Immigration and Customs Enforcement agents came to his home in 
a case of mistaken identity, but they ended up arresting him 
anyway. He said, and I quote, ``they made me feel like a 
criminal, and I am not a criminal.''
    My particular story has a happy ending, I think. In the 
summer of 2005, I began to work closely with Susan Douglas 
Taylor, my current counsel, beacon of hope, and constant 
support. In the spring of 2006, the Board of Immigration 
accepted my application for adjustment of status and remanded 
my case back to the immigration judge for a background check. 
Unfortunately, the immigration judge put me through a series of 
hearings and sent my case back to the Board of Immigration 
Appeals to reconsider their decision. This nearly broke my 
faith.
    Just last week, my lawyer, Susan Taylor, informed me that 
the Board of Immigration Appeals granted me an adjustment of 
status, and my case is won. However, I am apprehensive, and I 
do not know how to process this information, because I have 
been let down so many times with immigration law, that my heart 
fears any more disappointment. Furthermore, the timing of the 
decision also means that I may not qualify for a work 
authorization, and I may lose my job after May 24th.
    Although my immigration nightmare may almost be over, it is 
just beginning for countless others. I was very apprehensive 
about coming here to speak with you today in this very public 
forum. I worry, perhaps irrationally, that it might in some way 
have a negative impact on my case. God knows that I have gone 
to the depths of human frailty in trying to deal with my 
immigration situation, but it is my obligation to do what I can 
to prevent this anguish for other students, so I am here today 
on behalf of many talented and hardworking individuals who, 
like me, have grown up in the United States and who cannot tell 
their own stories because, if they did so, they would face 
deportation.
    I hope that hearing my testimony today will help them by 
making it more likely that the DREAM Act will become law this 
year.
    Thank you.
    Ms. Lofgren. Thank you.
    [The prepared statement of Ms. Kalaw follows:]
               Prepared Statement of Martine Mwanj Kalaw
    My name is Martine Mwanj Kalaw. I am a proud New Yorker employed as 
a financial analyst with the New York Public Library and prior to that 
I was a budget analyst at the New York City Mayor's Office of 
Management and Budget.
    Although I have lived in the United States for 22 years, I have an 
immigration nightmare I'd like to share with you. In August 2004, I was 
ordered deported.
    My mother brought me to the United States on a tourist visa from 
the Democratic Republic of the Congo when I was 4 years old. She fell 
in love with and married my stepfather when I was 7 years old. When I 
was 12 my stepfather died and three years later when I was 15, my 
mother died.
    My mother had been granted a green card, and was in the process of 
applying for permanent U.S. citizenship at the time of her death. 
However, neither she nor my stepfather ever filed papers for me. Thus, 
when my mother and stepfather died eleven years ago, I was left not 
only without parents, but also without a path to citizenship.
    Although I had no home, I was able to excel through my academic 
performance and through self-parenting. I attended prep school in 
Charlottesville, Virginia, with the assistance of a Judge, who acted as 
my benefactor. After graduating from St. Anne's Belfield School, I 
attended Hamilton College, in upstate New York, on a scholarship and 
graduated in 2003 with a concentration in political science.
    All of this time, I knew that I had immigration problems, but it 
wasn't until I was in college that I came to fully understand the 
extent of those problems. I needed a new social security card in order 
to secure a part-time job on campus. But when I naively went to the 
Social Security Administration for the card, they referred me to INS. 
The next thing I knew, I was in deportation proceedings.
    I persevered while my case was pending, despite the looming 
prospect of removal to a country in Africa where I would not be fully 
accepted and do not know the language. Soon after college graduation, I 
was a recipient of the Margaret Jane White full scholarship, which 
allowed me to graduate with a Masters in Public Administration from the 
Maxwell School at Syracuse University in 2004. Academia became my 
security blanket that allowed me to be something other than that 
scarlet letter ``I'' for ``illegal immigrant.''
    Despite my academic record, I cannot escape the stifling nature of 
my immigration status, and have therefore been unable to fully explore 
my full potential. My experience foreshadows what happens to immigrant 
students if legislation is not adopted to squarely address our status--
we will be left in limbo, with a lot to give back to America but 
without provisions that will allow us to effectively do so. While I 
have been uplifted by the U.S. education system, I have also been 
marginalized by the U.S. immigration system.
    In 2006, I met other potential DREAM Act beneficiaries who, like 
me, were facing deportation. They included: Dan-el Padilla, who 
graduated 2nd in his class from Princeton University last year, and 
another young man who finished law school last year at Fordham. A third 
boy, a sweet and bookish teen-ager and honors student, talked about how 
it felt when the Immigration and Customs Enforcement agents came to his 
home in a case of mistaken identity, but ended up arresting him anyway. 
He said, ``they made me feel like a criminal . . . and I am not a 
criminal.''
    I sensed the desire that many of these students share--to absorb 
all that there is to offer from the U.S. academic system and then to 
give it back to their communities tenfold. Unfortunately, instead of 
support they face a constant struggle to fight for legal 
representation, for a work permit, and for a future.
    My particular story has a happy ending, I think. In Summer 2005 I 
began to work closely with Susan Douglas Taylor, my current counsel, 
beacon of hope and constant support. In the spring of 2006, the board 
of immigration accepted my application for adjustment of status and 
remanded my case back to the immigration judge for a background check. 
Unfortunately, the immigration judge put me through a series of 
hearings and sent my case back to the Board of Immigration Appeals to 
reconsider their decision--this nearly broke my faith. Just last week 
my lawyer, Susan Taylor, informed me that the Board of Immigration 
granted me an adjustment of status and my case is won. However, I am 
apprehensive and I do not know how to process this information because 
I have been let down so many times with immigration law that my heart 
fears any more disappointment. Furthermore, the timing of the decision 
also means that I may not qualify for work authorization after May 24 
and I may lose my job.
    Although my immigration nightmare may almost be over, it is just 
beginning for countless others. I was very apprehensive about coming to 
speak with you today in this very public forum. I worry, perhaps 
irrationally, that it might, in some way, have a negative impact on my 
case. Lord knows that I have gone to the depths of human frailty in 
trying to deal with my immigration struggle. But it is my obligation to 
do what I can to prevent this anguish for other students. So, I am here 
today on behalf of many talented and hardworking students who, like me, 
have grown up in the United States, but who cannot tell their own 
stories because if they did so they would risk deportation. I hope that 
hearing my testimony will help them by making it more likely that the 
DREAM Act will become law this year.

    Ms. Lofgren. Ms. Tran. I think we have an audio-visual aid 
here because Ms. Tran is from California.
    You may begin.
    [movie plays.]
    Ms. Lofgren. Thank you, Ms. Tran, for sharing that work, 
and now we would like to hear from you.

       TESTIMONY OF TAM TRAN, UNIVERSITY OF CALIFORNIA, 
                   LOS ANGELES, CLASS OF 2006

    Ms. Tran. Okay. My parents escaped the Vietnam War as boat 
people and were rescued by the German Navy. They lived in 
Germany as refugees, and during that time, I was born. My 
family immigrated to the United States, when I was 6, to 
reunite with relatives who had fled to California.
    In the U.S., my parents applied for political asylum 
because they no longer considered Communist Vietnam as their 
home. Despite this, they lost the case. The immigration court 
ordered us deported to Germany. However, when we met with the 
German consulate, they would not accept us because we were not 
German. Germany does not grant birthright citizenship. So I may 
have been born in Germany, but I am not German, and my parents 
are Vietnamese, but I have never been to Vietnam.
    The truth is I consider myself, culturally, an American as 
I have been American-raised and educated for the past 18 years. 
Recently, I graduated with honors in American Literature, was 
immediately hired full-time as a filmmaker by UCLA and was 
accepted to a Ph.D. program in Cultural Studies. However, the 
issues I faced as an undergraduate are coming up again. The 
difference this time is I am 24 years old. I suppose this means 
I am finally grown up. I am an adult with a college degree. It 
is has been my dream to be an academic researcher and a 
socially conscious filmmaker, but it will have to wait.
    The Ph.D. program awarded me two large fellowships, but it 
is still not enough to cover the $50,000 per year tuition. I 
recently declined the offer to the Ph.D. program, and I thought 
that, with my new job, I can save up for graduate school next 
year, but 3 days ago, the day before I boarded my flight to 
D.C., I was informed that it would be my last day of work. My 
work permit has expired, and I will not be able to continue 
working until I receive a new one. Every year, I apply for a 
renewal, but never have I received the permit on time. This 
means that, every year around this month, I lose the job that I 
have.
    I am lucky to be here today to share my story and to give 
voice to thousands of other undocumented students who cannot, 
but I know that, when I return home tonight, I will become 
marginalized once again. Since I cannot legally work now, I 
know the job that I am going to look for when I get back is not 
the one I will want to have. The job I will want because it 
makes use of my college degree, will legally be out of my 
hands. Without the DREAM Act, I have no prospects of overcoming 
my state of immigration limbo. I will forever be a perpetual 
foreigner in a country where I have always considered myself an 
American.
    But for some of my friends who could only be here today 
through a blurred face on video, they have other fears, too. It 
may not seem like a graduation can be a scary thing, but for 
us, there is the huge fear of the unknown after graduation. 
Graduation for many of my friends is not a right of passage to 
becoming a responsible adult. Rather, it is the last phase in 
which we feel like we belong to this country. It is the last 
phase in which they feel a sense of belonging as an American. 
As students, my friends feel part of an American community, 
that they are living out the American dream among their peers, 
but after graduation, if the DREAM Act does not pass, they will 
be left behind as they cannot obtain jobs that will utilize the 
degrees they have earned. My friends will continue to be 
faceless, undocumented immigrants. Thank you.
    [The prepared statement of Ms. Tran follows:]
                     Prepared Statement of Tam Tran
    I hate filling out forms, especially the ones that limit me to 
checking off boxes for categories I don't even identity with. Place of 
birth? Germany. But I'm not German. Ethnicity? I'm Vietnamese, but I've 
never been to Vietnam. However, these forms never ask me where I was 
raised or educated. I was born in Germany, my parents are Vietnamese, 
but I have been American raised and educated for the past 18 years.
    My parents escaped the Vietnam War as boat people and were rescued 
by the German Navy. In Vietnam, my mother had to drop out of middle 
school to help support her family as a street vendor. My father was a 
bit luckier; he was college educated, but the value of his education 
has diminished in this country due to his inability to speak English 
fluently.
    They lived in Germany as refugees and during that time, I was born. 
My family came to the United States when I was six to reunite with 
relatives who fled to California, because, after all, this was America. 
It is extremely difficult to win a political asylum case, but my 
parents took that chance because they truly believed they were asylees 
of a country they no longer considered home and which also posed a 
threat to their livelihood. Despite this, they lost the case. The 
immigration court ordered us deported to Germany. However, when we 
spoke to the German consulate, they told us, ``We don't want you. 
You're not German.'' Germany does not grant birthright citizenship, so 
on application forms when I come across the question that asks for my 
citizenship, I rebelliously mark ``other'' and write in ``the world.'' 
But the truth is, I am culturally an American, and more specifically, I 
consider myself a Southern Californian. I grew up watching Speed Racer 
and Mighty Mouse every Saturday morning. But as of right now, my 
national identity is not American and even though I can't be removed 
from American soil, I cannot become an American unless legislation 
changes.
    In December, I graduated with a bachelor's degree in American 
Literature and Culture with Latin, Departmental and College honors from 
UCLA. I thought, finally, after all these years of working multiple 
jobs and applying to countless scholarships all while taking more than 
15 units every quarter, were going to pay off. And it did seem to be 
paying off. I found a job right away in my field as a full-time film 
editor and videographer with a documentary project at UCLA. I also 
applied to graduate school and was accepted to a Ph.D. program in 
Cultural Studies. I was awarded a department fellowship and the 
minority fellowship, but the challenges I faced as an undocumented 
college student began to surface once again.
    Except the difference this time is I am 24 years old. I suppose 
this means I'm an adult. I also have a college degree. I guess this 
also means I'm an educated adult. But for a fact, I know that this 
means I do have responsibilities to the society I live in. I have the 
desire and also the ability and skills to help my community by being an 
academic researcher and socially conscious video documentarian, but 
I'll have to wait before I can become an accountable member of society. 
I recently declined the offer to the Ph.D. program because even with 
these two fellowships, I don't have the money to cover the $50,000 
tuition and living expenses. I'll have to wait before I can really grow 
up. But that's okay, because when you're in my situation you have to, 
or learn to, or are forced to make compromises.
    With my adult job, I can save up for graduate school next year. Or 
at least that's what I thought. Three days ago, the day before I 
boarded my flight to DC, I was informed that it would be my last day at 
work. My work permit has expired and I won't be able to continue 
working until I receive a new one. Every year, I must apply for a 
renewal but never have I received it on time. This means every year 
around this month, I lose the job that I have. But that's okay. Because 
I've been used to this--to losing things I have worked hard for. Not 
just this job but also the value of my college degree and the American 
identity I once possessed as a child.
    This is my first time in Washington DC, and the privilege of being 
able to speak today truly exemplifies the liminal state I always feel 
like I'm in. I am lucky because I do have a government ID that allowed 
me to board the plane here to share my story and give voice to 
thousands of other undocumented students who cannot. But I know that 
when I return home tonight, I'll become marginalized once again. At the 
moment, I can't work legally even though I do have some legal status. I 
also know that the job I'm going to look for when I get back isn't the 
one I'll want to have. The job I'll want because it makes use of my 
college degree will be out of my hands. Without the D.R.E.A.M. Act, I 
have no prospect of overcoming my state of immigration limbo; I'll 
forever be a perpetual foreigner in a country where I've always 
considered myself an American.
    But for some of my friends who could only be here today through a 
blurred face in a video, they have other fears too. They can't be here 
because they are afraid of being deported from the country they grew up 
in and call home. There is also the fear of the unknown after 
graduation that is uniquely different from other students. Graduation 
for many of my friends isn't a rite of passage to becoming a 
responsible adult. Rather, it is the last phase in which they can feel 
a sense of belonging as an American. As an American university student, 
my friends feel a part of an American community--that they are living 
out the American dream among their peers. But after graduation, they 
will be left behind by their American friends as my friends are without 
the prospect of obtaining a job that will utilize the degree they've 
earned; my friends will become just another undocumented immigrant.

    Ms. Lofgren. Thank you very much.
    Thanks to all three of you for being here today and for 
sharing your personal stories with us.
    I will note that there are many undocumented students in 
America trying to grab the American dream, but we were only 
prepared to hear from students who had already been out in the 
tension because we did not want to put a young person at risk, 
and so we saw those blurred faces, and you are speaking for all 
of them today.
    I would just like to say, before asking questions, how 
proud I am of each one of you. I mean, your personal stories 
are tremendous, and the achievements that you have made 
academically and personally can only give me hope for our 
country with young people like you to forge us ahead. I think 
any one of us would be delighted and proud to have someone like 
you as a daughter, and I just am overwhelmed that you have been 
willing to come here today.
    You know, it is hard to know what to ask, but I am 
wondering if you each could tell me in what ways you think and 
plan that you can contribute to the United States if we are 
able to remove this immigration cloud from you and you just 
have a free path to contribute to America.
    Each one of you, what is your dream of your contribution to 
our country? Starting with Ms. Gonzalez.
    Ms. Gonzalez. I would like to become an attorney one day, 
and I would like to work for advocacy, like I stated in my 
testimony, as far as for people who are underrepresented, 
whether that will still be immigration or other issues. I would 
like to be involved with that, and I would like to pursue more 
community service and be, you know, on a board of something, so 
. . .
    Ms. Lofgren. Ms. Kalaw.
    Ms. Kalaw. Yes. I would like to just explore all of the 
different opportunities in terms of my career, something that I 
have not been able to do fully, and I would like to also give a 
voice to other individuals in my situation in terms of getting 
involved in nonprofit organization work, speaking at other 
forums such as this, and being able to not just have the three 
of us here but to have a group of individuals speaking on 
behalf of this legislation without fear of the backlash.
    Ms. Lofgren. Ms. Tran.
    Ms. Tran. Like I mentioned, I would really like to get into 
academia, so I would like to get my Ph.D. in American studies, 
and I want to be a part-time lecturer, and I also want to get 
involved in documentary work. I would really like to start a 
production company that translates academic work into the film 
media, and I would also like to get involved with a nonprofit 
organization. I am really interested in creating an oral 
history for individuals of marginalized communities.
    Ms. Lofgren. Well, each one of you has stated your interest 
in making a commitment, not to go make a ton of money, but to 
make the country itself richer through your efforts. This may 
not be a question that you can answer, but let me ask you 
because I am sure you have thought of it:
    What do you think your future will be like if you were 
deported to the country of your birth?
    Ms. Gonzalez.
    Ms. Gonzalez. That is kind of an interesting subject for me 
as I just recently received my extension. The extension was 
granted to me about a month ago with the remaining 60 days. I 
was originally scheduled to depart June the 22nd. So around 
this time for the past couple of years, I have always mentally 
prepared myself for knowing that, you know, I have tried 
everything, knowing that I have given my all, and you know, if 
I have to leave, I have always said I would leave, but I would 
always consider the U.S. my home. It would be very hard for me 
to go back. Of course, I would love to see my parents. I miss 
them so much. It is not even--I cannot even put it into words, 
but I also know that my dreams would change. As far as knowing 
Spanish, I can speak it very well, but at a writing level and 
to be in college there, it would be difficult. I could do it.
    I am a good student. I know I could, but I mean I do not 
know if my family could afford it. It would be a whole mess of 
things that, I mean, of course, I hope that that is not the 
case, and I hope that I do get to stay, but I have to 
realistically think about it. So thank you.
    Ms. Lofgren. Ms. Kalaw.
    Ms. Kalaw. Well, for a while, that had been my greatest 
nightmare because it is debatable as to which country I would 
be deported to, whether it would be Zambia or the Congo, but 
neither would be a relief to me as the Congo has been a war-
torn country for several years, more than a decade, and there 
is dire poverty; there is no strong economic structure there, 
and Zambia, being a country right near the Congo, is no better 
off. Both countries are--they are ridden with HIV/AIDS and a 
lot of circumstances in which I fear that I would not be able 
to survive.
    Ms. Lofgren. Do you speak the language of either of those 
countries?
    Ms. Kalaw. In Zambia, English is the first language. 
However, in the Congo, French is the official language, which I 
do not speak very well.
    Ms. Lofgren. Ms. Tran, my time is almost up.
    Ms. Tran. I mean you are right. I am not really sure how to 
answer that question. I have been asked that before, and it is 
kind of like I do not know, but I mean I do not have any 
connection to Germany. I lived there. I went to part of 
kindergarten there. I do not speak German. All I know of its 
history is what I have learned in American history about, you 
know, World War I and World War II. I have never been to 
Vietnam. I speak it at about a kindergarten level. I do not 
know. I cannot even imagine being in Vietnam. I have never even 
been in like the eastern hemisphere. I have no idea.
    Ms. Lofgren. Thank you, all of you, very much.
    I will now turn to the Ranking Member for his questions.
    Mr. King. Thank you, Madam Chair.
    I do want to thank you for your testimony, and I reflect as 
I listen to each of you speak and speculate that, no matter 
where you might have been or might be born, no matter what your 
circumstances in life, you are the raw material that would be 
successful in any environment, and I think you have proven 
that, and that is one of the reasons that you are here today.
    Ms. Kalaw, you know, there is a piece in your testimony, 
and I do not see it right in front of me, where you say that 
you went to the depths of human despair, and I see you here 
before us now, and I am wondering what that did for you. How 
did you respond when you were to the depths of human despair? 
How did you overcome that to be here today?
    Ms. Kalaw. Well, it has been an interesting journey 
because----
    Mr. King. Excuse me. The depths of human frailty.
    Ms. Kalaw. Yes, absolutely.
    At the same time--I think my counterparts can attest to 
this. At the same time, you are falling apart; you are in 
deportation proceedings and you do not know from day-to-day 
whether the immigration services will come to your home or not.
    Mr. King. Did it make you stronger?
    Ms. Kalaw. It did make me stronger.
    What I was basically trying to say was it is almost like 
living a double life essentially. You still have to try to 
survive. You still have to go on. There are no other choices. 
Your only choice is to, essentially, give up and be deported to 
a country you do not know.
    Mr. King. What language did your mother speak?
    Ms. Kalaw. She spoke several. She spoke French, Lingala, 
Kikongo, a number of languages.
    Mr. King. English?
    Ms. Kalaw. She spoke English okay. She was not fluent.
    Mr. King. Better than you speak French?
    Ms. Kalaw. Yes. Yes. I took French in high school and a 
little in college, and that is the extent of my French.
    Mr. King. Well, I thank you.
    Ms. Gonzalez, as for the advocacy here for the DREAM Act, 
what would you have to say to those young people who are 
paying--or whose parents are paying--or whose parents are 
signing student loans for expensive tuition that they are 
paying because they are out-of-state students who do not 
qualify for that tuition that you are asking for as a symbol of 
the DREAM Act? How would you reconcile that position? What 
would you say to them? What would you say to my daughter-in-law 
who is still paying student loans?
    Ms. Gonzalez. I think as far as in-state tuition--I, 
personally, go to a private college, so this does not affect 
me, but I think, as far as I understand it, it leaves it up to 
the State to choose whether or not they want to do in-state 
tuition.
    Mr. King. Actually, the law says that they have to offer 
that same discount to everyone, and they are in violation of a 
Federal law that can only be resolved if there is a lawsuit 
filed in civil court. So I will ask you to reconcile this from 
a moral perspective.
    You know, if you sat down at the student union and you were 
looking those students in the eye who are going to carry a 
debt, some of them for many, many years and they are paying a 
higher tuition rate--not in your particular case, but what you 
are advocating for--how do you reconcile that? What is fair? 
What is moral?
    Ms. Gonzalez. I think as far--obviously, I have not really 
prepared for this, but I would say--I mean, it is a tough call 
no matter what I say, and I know that we side differently, but 
I would go ahead and say, for a student like me who has gone to 
school in Missouri for as long as I have, I would feel that I 
would qualify for in-state tuition as opposed to a student who 
would come over from Arkansas who would only be moving in.
    Mr. King. Because, in your view, you would be a resident of 
that State?
    Ms. Gonzalez. Yes, exactly, and I have contributed to the 
State.
    Mr. King. Okay. We will disagree there.
    So then the following question would be this, that the 
Senate has announced that they want to grant ``lawful present 
status,'' and I will put that in quotes, to everyone, except 
those who are obviously felons, who arrived here in the United 
States by January 1st of 2007. Anyone who arrives after that, 
apparently, is not included in that.
    Do you think that is appropriate, and what would you say to 
that person who arrived here January 2nd, 2007? Could you look 
them in the eye and say, ``I think you should be sent back home 
to your home country''? If we cannot do that, how could we then 
enforce any immigration law whatsoever? How could we actually 
have a border here in America?
    Ms. Gonzalez. I think the main problem, though, is that we 
need to start somewhere, and I think that that is what they are 
trying to do. I think that has been our toughest----
    Mr. King. Could you look them in the eye?
    Ms. Gonzalez. Oh, I would never be able to look anyone in 
the eye and tell them that.
    Mr. King. But doesn't somebody have to do that?
    Ms. Gonzalez. But, I mean, people have looked me in the eye 
and told me that, so----
    Mr. King. It is easier being here for me to take your 
position than it is for you to take mine, but I revere this 
rule of law, and I think one of the reasons that you are all 
here is to escape that lack of rule of law in the countries 
that you left, and so I do not want to recreate that 
circumstance here in the United States where slowly we erode 
this rule of law that is the attraction that brings such 
talented people here to the United States.
    I thank you very much for your testimony.
    I yield back the balance of my time.
    Ms. Lofgren. The gentleman's time has expired.
    I would call now on the Chairman of the full Committee, Mr. 
Conyers, for his questions.
    Mr. Conyers. This has been one of the most moving hearings 
on immigration that I have attended, and I am trying to figure 
out why, because there are innumerable cases of personal 
hardship, immediate fears, continuing harassment, a 
nonresolution of a problem that follows you around, and here 
are 535 men and women lifted out of 300 million in America to 
decide this question, and of all things, you are here to help 
us decide this question. So we have enormous responsibilities 
because a lot of people are making up their minds as to what to 
do. I am trying to decide about that January 1, 2007 deadline. 
I do not have any better answer than anybody in this hearing 
room, but that is our job, and here you are--three young, 
brilliant, attractive, talented people from Costa Rica, Zambia, 
Congo in your background, Vietnam, Germany. Here is what 
occurred to me, and you can tell me what my discussion 
engenders in your thinking this morning.
    Here are 6.3 billion people on the planet earth and 
growing, and almost everybody seems to want the same thing. We 
want to succeed in life. We want to try to follow our dreams. 
It does not seem to be any different. Maybe you are typical of 
the way most people in 192 other countries feel about this. So 
tell me how you think what we are doing here is going to maybe 
help or change the circumstances.
    Ms. Gonzalez. I definitely am a believer in just, you know, 
getting both sides. And I think the more that we discuss the 
more that we learn, and I think that is the best thing that we 
can do, is inform ourselves to the very--or to the maximum 
capacity. But these talks in the last few months especially I 
think have been very productive and will continue to be 
productive, and I hope that we do reach a good solution.
    Mr. Conyers. You reminded me that also the American people 
weigh in on these decisions. It isn't really just us Senators 
and us Congresspersons. The American people are influencing us 
as well.
    Ms. Gonzalez. M-hm.
    Mr. Conyers. So they are looking and listening trying to 
get this straight. Should we keep all these people? Everybody 
wants to come to America. You know, that is a line. We got to 
draw the line somewhere.
    Ms. Kalaw. I think that it is important to, in addition to 
exploring comprehensive immigration reform, we should also 
explore the DREAM Act, because it speaks to individuals such as 
us, while the other legislation may not fully address our 
particular individual situations. And the American people, they 
know individuals such as us. We all like to think we are like 
the girls next door. So it is important to have individuals 
such as us speak. And I think that would help the legislation.
    Ms. Tran. I just wanted to add on to that. I mean, you 
know, when somebody is deported or is affected by immigration 
it just doesn't affect that one person. For example, I also 
tutor at UCLA. And when I lost my job on Tuesday, I had to e-
mail all my tutees and tell them you know what, sorry, but I 
can't help you with your finals anymore, I can't help you do 
any of those things. And so I mean if something were to happen 
to any of us it affects not just our families, but maybe, you 
know, U.S. citizens who--it will affect our friends; it will 
affect the schools we go to, the places that we work. These are 
just not like individual cases. It affects everything that we 
are involved in.
    Mr. Conyers. Thank you all so much.
    Ms. Lofgren. The gentleman's time has expired. The 
gentleman from Texas, Mr. Gohmert.
    Mr. Gohmert. Thank you, Madam Chairwoman. And I have really 
appreciated your testimony and am sympathetic for your 
circumstances. I was in the back room watching by the 
television, but I was also on the phone, ironically as things 
go, talking to my oldest daughter. I have three daughters, so I 
am kind of--got a soft spot for the three females sitting here. 
But anyway, it was rather ironic, I thought. Concluding our 
conversation, she is in a country several time zones away, and 
was telling me about how strict the immigration law is and 
problems she is having, and she concluded the conversation by 
saying she had heard that Congress may have a resolution on the 
immigration issue. And I said, well, the Senate may have. We 
are still dealing with that. She said, well, I love you, and 
good luck on your immigration issue. And I said, I love you, 
and good luck on your immigration issue.
    But anyway, I appreciate hearing the stories you each have. 
And obviously everything we do here affects real lives and 
makes it difficult. But thank you. I really don't have any 
questions, but appreciate the testimony. Thank you very much.
    Ms. Lofgren. Thank you. Mr. Gohmert yields back his time. 
Mr. Howard Berman, the author of the DREAM Act, is recognized 
for 5 minutes.
    Mr. Berman. Thank you, Madam Chairman. I want to echo the 
words of our full Committee Chairman, both about this panel and 
about your decision to hold this hearing. Like so many of your 
decisions in this area, it was I think an inspired one, and I 
thank you for doing it, if for no other--there are many 
reasons, but from a personal level, hearing the three of you 
talk, it sort of--it reinspires me about what some have 
referred to as legislating by anecdote, the stories of real 
people and what's happening to them. And one particular story 
that got me into this 6 or 7 years ago regarding what was 
happening to people.
    And the thing I respect about the Ranking Member of the 
Subcommittee is it is clear his perspective on these issues is 
not coming from some obsession or calculation of how it is 
going to impact his political situation in his district. He 
clearly--he both--he clearly feels and articulates the fears 
and concerns that he has about the approach that many of us are 
taking on these issues. And that allows one to sort of 
understand and try to deal with and respond to people who don't 
see it the same way that we do, and I respect him for doing 
that. But I do want to just, rather than ask questions, just 
try to join issue on a couple of the points that he has made in 
his comments.
    First, this notion of sort of in a somewhat, perhaps even 
in a little bit of a dismissive way, legislating by anecdote. 
The day that the 535 Members here divorce themselves from the 
stories of what is happening to people as a result of our laws 
and our policies is the day we really ought to close the 
institution down. Because yes, there is a tremendous place for 
witnesses with expertise and statistical information and an 
ability to extrapolate the consequences of changes of the law 
and science and informed opinion, but somewhere it has to start 
with how real people are impacted by the existing state of the 
law and whether or not that is a cause for changing the law. So 
I don't take the notion of being motivated to try and change 
something because of an anecdote, a story, a true story about 
an individual, a family, a group of people and what is 
happening to them as a result of that law as bad. I take it as 
the best way to get us engaged outside of this Washington 
culture, context, the thing that tends to happen to us when you 
run around from day to day voting yes, voting no, introducing 
bills and deciding what is our priority and what do we really 
want to accomplish.
    The second thing is a point was made by the Ranking Member 
that I think has to be clarified. You are not here in this 
country because you made a decision to leave a country that 
didn't have the rule of law. You didn't make the decision to be 
in this country. You had essentially no role in that decision. 
It was a series of circumstances--we can have different 
feelings about the decisions that your parents and others made 
that brought you here, but the one thing no one can argue is 
that you are here because you made some decision that this is 
where you wanted to be. This is where you found yourself. And 
you are three stories of people who took the cards you were 
dealt and have done a remarkable job with them.
    And the third point is the randomness and the craziness of 
the present situation. Why the three of you face certain 
consequences, while hundreds of thousands, millions of others, 
because an anonymous caller hasn't yet called about them, 
because the faces on your film are still blurred, haven't yet 
faced that consequence. They just live in constant fear that 
they might face those consequences. And a situation--and that 
is what the status quo is. Because if we don't do something, 
the one thing I know is we are not going to have a systematic 
policy of finding everyone who is in your situation and 
removing them from here. It is going to continue to be a 
whimsical, random, unfair, very selective process of--and 
arbitrary process of who gets out and who stays in. And that is 
not good either. So the absence of an alternative effective 
strategy by the people who rail against what we propose I think 
should be noted.
    So my time expired I don't know how long ago. But I yield 
back, and thank you.
    Ms. Lofgren. Thank you. The gentleman from California, Mr. 
Lungren, is recognized for 5 minutes.
    Mr. Lungren. I didn't even notice his time had expired.
    Ms. Lofgren. It was compelling. We can't hear you, Dan.
    Mr. Lungren. It is not working. I will try this one. I may 
come at this from a little different perspective, because I was 
here, along with Mr. Berman back in 1986, and I was the 
Republican floor manager for Simpson-Mazzoli, so you either get 
the credit or the blame for gathering sufficient Republican 
votes for that bill that legalized several millions of people. 
At the time, we said it was going to be a one time only 
legalization. We said that because we were concerned that we 
had to deal with the problem of a large number of people who 
were here illegally under our laws, and we wanted to resolve 
that situation and do what the gentleman from California has 
just mentioned that we want to do now, settle the situation 
with those who had roots in the community for a sufficient 
period of time, but have employer sanctions and enforcement so 
that we wouldn't reach this situation in the future. Well, the 
legalization program worked fairly well. We didn't do any 
enforcement.
    The concern I have, as we come to this legislation, is what 
we do now? Does it create a repetition of what we did in '86, 
with the idea that instead of settling things, it acts as an 
encouragement for more people to come into this country 
illegally? And so you each have very compelling individual 
testimonies. And they may be so compelling that they would 
merit private legislation. But that is different than making a 
determination with respect to the general law.
    And so what I would ask you is this, because this is a 
question I am going to have to answer to my constituents. If we 
were to pass the DREAM Act and settle all of the notions 
resolving doubt in favor of those individuals who came here--
let us say who came here illegally, let us talk about that 
group as a result of their parents' decision, out of fairness 
to those in situations such as yours and others, would that and 
could that, and should we as legislators be concerned about it 
happening, encourage others to continue to break the law even 
after we set a new bill into law because the payoff is even 
though they break the law and come here they are giving their 
children the best gift they can possibly give them, the 
potential to live in the United States full-time and to at some 
point in time make a very compelling testimony that out of 
fairness they ought to remain here? Should we be concerned 
about that or is that one of the things that although it is of 
some concern it is so insubstantial compared to the merits of 
the situation supporting DREAM Act that we ought not to 
consider it? I just wonder what you might think on that.
    Ms. Gonzalez. That is a tough question. But I would say I 
mean, you know, stepping aside from my own personal story, I 
would say that it is--I mean obviously, unfortunately, it is a 
key issue in all this. You know, if we were to do this how we 
enforce it so what happened in '86 wouldn't happen again. But I 
think that--I mean these stories, these kids, I mean so many of 
them are Americans. Like not talking from my own personal, you 
know, but I mean--it would seem so unfair. And logically I 
don't see how we would be able to, you know, be able to remove 
every single person. I know that a lot of people would end up 
being removed if we could, but even budgetwise and stuff like 
that, I don't know how that would happen. So I think this would 
more likely be more of a benefit to the country than, you know, 
difficulty. I don't know.
    Mr. Lungren. See, that is the kind of thing we have to 
wrestle with. We had a commission established by President 
Carter right around the time I was here the first time. And one 
of the co-chairs was Father Hesberg, the president of the 
university I graduated from. And he made a statement in which 
he said we must close the back door of illegal immigration so 
that we can open the front door of legal immigration. And Ms. 
Tran, I would refer to some of the testimony you gave earlier 
about how what happens to you or someone else similarly 
situated not only impacts you, but other people, family 
members, folks you come into contact with.
    Let me look at it from a slightly different perspective, 
which is if we don't control illegal immigration, the sentiment 
in the country may very well be to slam the door on legal 
immigration. And what do you say to someone who, let us say, 
was from Vietnam or the Congo or somewhere else who didn't come 
here illegally, but stayed in their country and waited for the 
number to come up to allow them to come here? Or let's take the 
Philippines, where they have a huge, huge list. It affects them 
as well, their family members, their brothers, their sisters, 
their parents. What would you have me say to them?
    And I don't want to unfairly put you on the spot. So if you 
think it is an unfair question, don't answer. But that is one 
of the questions I have to answer as well when a family member 
comes to me and says I have had somebody I know in the 
Philippines who has waited 15 years. They can't get their 
number because of the quotas are all fixed up, yet people who 
didn't follow the law have the benefits.
    Ms. Lofgren. The gentleman is given 30 seconds by unanimous 
consent so Ms. Tran can answer.
    Ms. Tran. Well, I don't know the direct answer. I don't 
know what you would say to your constituents. But I can say 
that I think the reason some people do things in a way that is 
not in line with the law is because they don't have a path to 
do it legally. And if the people who came to this country, you 
know, by crossing the border without the right paperwork--you 
know, nobody really would prefer to do that over doing it the 
right way. My parents wanted to do everything the right way. I 
know a lot of people would prefer to do everything the right 
way. They would have preferred to pay the money that they would 
have had to do for that security of being in this country 
legally. But because some people don't have the avenue to do 
that and some people don't have the legal means to do that, 
this is the only choice that they have. And this is what some 
people have chosen to do is to take that risk to come to this 
country.
    Ms. Lofgren. The gentleman's time has expired. We will 
recognize now the gentlelady from Texas, Ms. Sheila Jackson 
Lee, for 5 minutes.
    Ms. Jackson Lee. Allow me to echo the overwhelming joy that 
we sense by the testimony that you have given. I don't believe 
that you really should be burdened by 1986, what happened in 
1986. I imagine, looking at you, you were not born in 1986. And 
so you probably will study that by way of history. But you 
certainly won't do it going forward.
    I heard one of my colleagues indicate that your adversity 
has strengthened you. And I would argue that probably all of 
your life experiences have done so. But I would just indicate 
that the horrors of segregation and racism in America probably 
strengthened many who were African American. But would we 
choose to go through it again or continue to go through it? I 
think not. So when we think of adversity, it may strengthen 
persons, but if we can find a way to enhance their lives and 
our lives without the oppression of those kinds of horrible 
experiences, why shouldn't we do that? And I think it is 
apropos to the conditions of individuals who have come to this 
country not of their own initial will, as my colleagues have 
said, and therefore how we treat them clearly should be from a 
different context. And so I want to raise these questions.
    This is a very important hearing, because it is in the 
backdrop of a hearing we had yesterday or the day before that 
spoke about uneducated, undocumented immigrants, a burden to 
society economically and socially.
    This is a wonderful example of the emerging undocumented 
students from pre-K to where you are who are striving to be 
contributing citizens, and have a presence here, and can 
contribute. From your background and your array of activities 
there is no doubt. Let me pose these questions. And might I 
just for the record have you note that many of us who are here 
in Congress are first, second, or third generation immigrants. 
I happen to be one. So I think it is important to know where 
you can go in your life. You might not want to be here, but it 
does speak to what education can do.
    Could you just tell me what do you find good about America? 
And if you can go quickly. I have three questions, and I want 
to get all of them in. So we know who we are dealing with when 
we talk about all the students that may be impacted by the 
DREAM Act.
    Ms. Gonzalez. For me it is the opportunity and just the 
education I would say.
    Ms. Jackson Lee. Thank you.
    Ms. Kalaw. I would have to echo that and say it is the 
education. It has been my way of surviving. It has given me 
open doors and given me a family also.
    Ms. Tran. I think I am going to third that and say the 
education. I mean among me and all of my friends, it is the way 
that we have--it is the path that we have used to self-empower 
ourselves.
    Ms. Jackson Lee. My next question, do you feel a sense of 
loyalty and patriotism and pride about America?
    Ms. Gonzalez. Oh, my goodness, yes, every 4th of July I 
stand up there, and cannot wait until the day that I am a 
citizen and can proudly say that I am.
    Ms. Jackson Lee. I have been to those ceremonies. They are 
emotional. The tears come to your eyes. Are you a teary person 
about patriotism and loyalty?
    Ms. Gonzalez. I am very much.
    Ms. Jackson Lee. You feel it in your heart?
    Ms. Gonzalez. Oh, I do. Hard core.
    Ms. Jackson Lee. Ms. Kalaw?
    MS. Kalaw. Yes, absolutely, and I can't wait until the day 
that I can vote in the United States.
    Ms. Jackson Lee. Ms. Tran?
    Ms. Tran. I mean, same here. I mean, it is something that 
my friends and I always talk about. We always feel like we are 
the ultimate Americans, because it is something that we don't 
have access to. We always say like, oh, my gosh, we would 
totally go vote if we could. We would totally go do all these 
things if we could.
    Ms. Jackson Lee. I know the percentages of undocumented, 
many of them are children, do you think in your generation 
anyone is against being Americanized and learning English? Many 
of us have bills that have all these components. Is anyone 
against that? Even if you are proud of your original heritage, 
are you against becoming an American and proud of being a part 
of that mosaic?
    Ms. Gonzalez. I would say no, because most of the kids I 
mean have been born--or have been raised, so I mean pretty much 
we kind of just automatically acquire it. I don't know.
    Ms. Jackson Lee. Happily so. And some of you are bilingual? 
Yes.
    Ms. Kalaw. When coming to America, or living here, there is 
a strong desire to be a part of the American culture and the 
American dream so, no, there is.
    Ms. Jackson Lee. We don't have to be frightened of a 
divided America of immigrants wanting to be over in the corner 
over here, as opposed to being part of the wholeness of this 
country?
    Ms. Kalaw. No.
    Ms. Jackson Lee. From your perspective?
    Ms. Kalaw. Not at all.
    Ms. Jackson Lee. Ms. Tran?
    Ms. Tran. All of us are just trying to fit in. I mean we 
are still here, right? I mean all of us have the choice to 
leave, but----
    Ms. Jackson Lee. You are ready to stay?
    Ms. Tran. Yes.
    Ms. Jackson Lee. I thank you, Madam Chair. I just want to 
note the horrors of deportation that these people have faced, 
and I think it is important that we listen to their stories. I 
yield back.
    Ms. Lofgren. The gentlelady's time has expired. The 
gentleman from Massachusetts, Mr. Delahunt, has 5 minutes.
    Mr. Delahunt. Thank you very much for your poignant and 
powerful stories. You really give a human face to this issue.
    Ms. Tran, my younger daughter is from Vietnam. So your 
presence here provokes reflection on my part. She is adopted, 
obviously, and she could be sitting there. Maybe we should 
adopt the three of you here in this family. But I have already 
paid for that education. I don't know if I want--you know, I 
think that the DREAM Act that has been crafted by Mr. Berman is 
really a part of a jurisprudence in the United States that 
recognizes that children should be treated differently.
    In a previous life I was a prosecutor. And for years in 
this country there was just a criminal justice system, until it 
was recognized that children needed protection. We have child 
abuse laws. But back decades ago people like those of us on 
this panel in States throughout the United States decided we 
needed a juvenile justice system. We have the age of majority 
because we recognize that with children, particularly those who 
are incapable of forming an intent, deserve to be treated 
differently. They are children no matter where they come from. 
And I think that really is something that those of us that will 
be making these decisions have to think very carefully about. 
And your stories reinforce that.
    You came here at very tender ages. You don't know--you 
indicated, Ms. Tran, you have never been to Vietnam. We hear 
about the rule of law. One of my colleagues indicated, I think 
it was Chairman Conyers, that it is not static. Law is a 
process of change and a reflection of hopefully moral 
principles. Just imagine in these cases, would it be moral to 
send these three young women to a place that they have never 
been, where they don't speak the language, where they don't 
understand the culture? You know, America, above all, is a 
moral country. We fail sometimes. But there is a Frenchman who 
came here in the 1800's that had this to say about America. And 
I firmly believe it. America is great because America is good.
    I yield back.
    Ms. Lofgren. The gentleman yields back. The gentlelady from 
California, our colleague, Ms. Linda Sanchez.
    Ms. Sanchez. Thank you, Madam Chairman. And I want to thank 
our three witnesses on the first panel for having the courage 
to come here and share your stories with us today. I know that 
it probably takes a great amount of strength to come forward, 
and it can be a scary process. And so I want to thank you for 
having the courage to come. And just listening to your 
testimony, each of your stories is heartbreaking in a different 
way.
    While I was listening to your testimony, I realized that 
you are not much different than I am, actually. Because your 
parents came here from other countries with the hopes of giving 
you the kind of opportunities and better life just like my 
parents did. My parents came from Mexico. You have all 
struggled hard. And you have succeeded academically and in many 
other ways as well, just like I did. And you all identify with 
the American culture, speak English fluently, and you are 
patriotic and love this country, just like I do. But the little 
difference that remains between you and me is that I have a 
piece of paper that tells me that I am a citizen. And so I was 
able to pursue my dreams, to pursue my education, and do things 
like practice law and eventually run for Congress. And as I sit 
and look at you three, I think about the infinite number of 
possibilities of things that you could contribute to this 
country if you were just given the chance. So your testimony 
today, I think Mr. Delahunt said very eloquently, puts a human 
face on what the policy decisions are that we as Members of 
Congress have to make.
    I want to ask the three of you, did any of you three have a 
say in deciding where you wanted to live or in deciding to come 
to this country? Did any of you decide one day that you were 
going to come here?
    Ms. Gonzalez. I was five, so my parents told me we were 
taking a trip, and if we liked it we were going to try and 
stay. And that is what happened.
    Ms. Sanchez. Anybody else have that?
    Ms. Kalaw. No, I didn't have a say. I remember being a 
child, practically a toddler coming to the United States.
    Ms. Sanchez. Ms. Tran?
    Ms. Tran. Same as Marie, I knew we were going on a plane 
somewhere on vacation. And I remember pointing out a calendar 
once we got here, like when are we going back? Like on this 
day? And I didn't really know what a calendar was.
    Ms. Sanchez. Okay. Clearly, you didn't wake up one day with 
a decision you were going to come to this country. Do any of 
you feel like lawbreakers, that you personally are a lawbreaker 
for having come to this country since you didn't really have a 
say?
    Ms. Kalaw. I have never felt like a lawbreaker, but I have 
carried a burden of shame with me for many years.
    Ms. Sanchez. That is not a shame that you chose yourself.
    Ms. Kalaw. No, it is a shame that others----
    Ms. Sanchez [continuing]. Imposed on you.
    Ms. Kalaw. Yes.
    Ms. Sanchez. Thank you. I am just interested in knowing, 
you just mentioned loving this country and feeling like you are 
American through and through and wanting to stay and be a part 
of this country. And you mentioned a couple of examples of 
things you really can't wait to do, like become a citizen or 
vote. How would your lives change if you were able to become 
legal permanent residents or citizens? What other things are 
you waiting to do or would you love to do if you could be told, 
yes, you have the certainty that you will be able to stay in 
this country and pursue your dreams? Ms. Gonzalez?
    Ms. Gonzalez. Wow. That would be such an amazing feeling. 
That would be such a weight that would be lifted off of my 
shoulders. I think I would go back to being a little kid and 
just run around like crazy and be so happy. But I think I would 
definitely take full advantage of that and try and contribute 
as much as possible again and give back to the community that 
has given so much to me. And that is what I would be really 
fighting for, because I have had that support from my 
community.
    Ms. Sanchez. Ms. Kalaw?
    Ms. Kalaw. I would be--well, I can't wait to further 
develop relationships with individuals in my life. Up until 
this point, it has been quite stifling, because I have always 
had that burden of immigration status weighing on me.
    Ms. Sanchez. Ms. Tran?
    Ms. Tran. I would further pursue my education. For example, 
I really wanted to apply to UT-Austin for graduate school, but 
I couldn't because I couldn't afford the out-of-state tuition 
and things like that.
    Ms. Sanchez. One last question. Do you think, ultimately, 
that if you were not allowed to remain in the United States 
that the countries to which our country would send you back 
would accept you even?
    Ms. Gonzalez. I can actually attest to that, because 
throughout all the media that I have done in the past there 
have been times where I have been--I mean there has been a 
backlash against, you know, how much I have tried to fight, you 
know, and they would know that I have been trying to fight to 
remain in this country and they are like, well, you know, are 
you coming back then? And it would be difficult. I think the 
biggest issue would be if I were ever allowed to come back to 
the U.S. That would be something very difficult for me to, you 
know, if I was told I can't come back for 8 years like my 
parents, that would be very hard for me to deal with.
    Ms. Sanchez. Ms. Kalaw?
    Ms. Kalaw. Because I was born in Zambia, but I relocated to 
the Congo right after my birth, the Zambian country does not 
technically recognize me as a citizen. It is still 
questionable. And the Congo does not recognize me either 
because I don't have a Congolese birth certificate.
    Ms. Sanchez. There is a lot of uncertainty as to where they 
would send you?
    Ms. Kalaw. Absolutely.
    Ms. Sanchez. Ms. Tran?
    Ms. Tran. I already mentioned it in my testimony, but I 
mean, Vietnam doesn't even know I exist, and Germany's already 
said that they wouldn't accept me.
    Ms. Sanchez. Thank you, and I yield back.
    Ms. Lofgren. Thank you very much. And thank you very much 
to this panel. Your testimony has been compelling. This is the 
12th hearing we have had. I will just tell you that much of the 
testimony we have received has been, you know, what do we want 
for immigrants in this country? We want people who speak 
wonderful English. We want people who have great educations. We 
want people who are assimilated and who love America. You are 
the answer to our dreams. And hence the DREAM Act, which we are 
grateful to Mr. Berman for introducing.
    I will say that the DREAM Act actually doesn't even mention 
some of the issues that have been raised, but merely allows 
young people in your situation who didn't make the decision to 
come to earn legal status through getting your education or 
serving in the U.S. military. So we will--we may have 
additional questions. If we do, we will forward them to you. 
And we do appreciate your willingness to be here. I think that 
your testimony certainly touched my heart, and I think will 
make a difference in this debate as we move forward.
    Ms. Jackson Lee. Madam Chair?
    Ms. Lofgren. Yes.
    Ms. Jackson Lee. May I ask if you would yield after you 
finish?
    Ms. Lofgren. I will yield at this point.
    Ms. Jackson Lee. Let me just double echo your emotion and 
your comments. But I would like unanimous consent to submit an 
article, ``AP Impact: Immigration Raids Split Families.''
    Ms. Lofgren. Without objection, the article is entered into 
the record.
    [The information referred to is inserted in the Appendix.]
    Ms. Lofgren. And I would just like to conclude. Thank you 
very, very much. We are going to have the staff get in touch 
with you and get all of your contact information so that we can 
keep in touch with you. It has been an honor to meet you and to 
see the success that you three have achieved in our country. 
And we hope that through our efforts here in the Congress that 
we will create a new rule of law that will allow you to fully 
participate in this country where you have been raised. So 
thank you very much.
    Now call the second panel, if we could.
    Thank you all, second panel, for taking the time to speak 
with us today. First on the panel, I am pleased to introduce 
Diana Furchtgott-Roth--I hope I have not destroyed the 
pronunciation of your name, but you will correct me if I have--
a Senior Fellow and Director of the Center for Employment 
Policy at the Hudson Institute. Prior to her arrival at the 
Hudson Institute, she served as a Chief Economist at the U.S. 
Department of Labor. Between 2001 and 2003, she worked as a 
Chief of Staff of President George W. Bush's Council of 
Economic Advisers. Under President George H.W. Bush, she was 
the Deputy Executive Director of the Domestic Policy Council, 
and Associate Director at the Office of Policy Planning. She 
received her bachelor's degree from Swarthmore, and her 
master's from Oxford University.
    Next I would like to extend a warm welcome to Dr. Allan 
Cameron, a retired high school computer science teacher from 
Phoenix. After receiving his bachelor's and doctoral degrees in 
Elementary Education from Arizona State University, Dr. Cameron 
taught for nearly 30 years in Arizona's public schools. Drawing 
from his work as an electronics technician in the United States 
Navy, Dr. Cameron co-founded the Falcon Robotics Team at Carl 
Hayden High School in Phoenix. The team has competed at three 
national robotics championships, winning second place in 2005. 
In a 2004 university underwater robotics competition, the high 
school robotics team--comprised four Mexican immigrants--gained 
nationwide attention when they trounced the Nation's top 
engineering programs, including that of the Massachusetts 
Institute of Technology, at the competition. And I am a big fan 
of the FIRST competition. Congrats on that.
    We are also pleased to have Jamie Merisotis with us, the 
President and founder of the Institute for Higher Education 
Policy, one of the world's premiere higher education research 
groups. Mr. Merisotis played a leading role in founding the 
Alliance for Equity in Higher Education in 1999. And in 
September of last year, he helped establish the Global Center 
on the Private Financing of Higher Education. Prior to his work 
at the Institute for Higher Education Policy, Mr. Merisotis 
directed the bipartisan National Commission on Responsibilities 
for Financing Post-Secondary Education, and assisted in the 
creation of the Corporation For National and Community Service, 
or AmeriCorps.
    Finally, I am pleased to welcome the minority's witness, 
Dr. Kris Kobach, a professor of law at the University of 
Missouri - Kansas City. Professor Kobach joined the faculty at 
the University of Missouri in 1996, and he was awarded a White 
House fellowship in 2001 to work for then-Attorney General John 
Ashcroft. Professor Kobach continued on after his fellowship as 
Counsel to the Attorney General. He earned his bachelor's 
degree from Harvard University, his law degree from Yale 
University, and his doctorate from Oxford University as a 
Marshall Scholar.
    Each of you will have your entire written statements made a 
part of this record, but we do ask that you summarize your 
statements in about 5 minutes. When you have 1 minute to go, 
those little machines on your table will flash yellow. And that 
is really the time to know that you need to start winding up. 
And when your time is up it flashes red. And I will say most 
witnesses are always surprised, because the time goes very 
quickly. But we do hope to keep you within the time frame, 
because we have many Members here who would like to ask 
questions.
    So Ms. Furchtgott-Roth, am I too far off on the 
pronunciation?
    Ms. Furchtgott-Roth. No, that is great.
    Ms. Lofgren. You are recognized for 5 minutes.

TESTIMONY OF DIANA FURCHTGOTT-ROTH, SENIOR FELLOW AND DIRECTOR, 
         CENTER FOR EMPLOYMENT POLICY, HUDSON INSTITUTE

    Ms. Furchtgott-Roth. Thank you very much for giving me the 
opportunity to testify today. I would like to say that 25 years 
ago I was in a similar situation to these young people. I was 
here in the United States legally, but I did not have a work 
permit. I was fortunate to be able to marry an American 
citizen. And 24 years of happy married life and six children 
later, I hope that the United States is not sorry that I was 
able to gain my citizenship.
    Many undocumented students such as the ones we have heard 
from today don't have the papers due to various personal 
circumstances. Nevertheless, I would like to say that their 
presence in America would benefit us, because they are 
hardworking and talented, and produce streams of income taxes 
and Social Security payments that bolster our fiscal position.
    One indication of the potential benefits of undocumented 
immigrant children is to look at how well their peers, the 
legal immigrant children, do as they grow up. Many of these 
young immigrants become high-achieving students and then 
outstanding workers and entrepreneurs. Many of the top students 
in merit-based high schools, such as Stuyvesant High School in 
New York, are children of immigrants. The undocumented 
immigrant children might do just as well, if not better, 
especially given the difficult circumstances they have to go 
through.
    What the DREAM Act seeks to do is, through the rule of law, 
fix the problems of these undocumented students. According to 
the Migration Policy Institute, 360,000 young people fit these 
criteria, and about 715,000 other young people age 15 to 17 
could become eligible in the future. This total of about 1 
million potential workers represents 0.7 percent, less than 1 
percent of our labor force. Even if this number were to double 
or triple because of the incentives that some of the Members 
mentioned this morning, it would still be only a tiny fraction 
of our work force.
    Even though these undocumented young people are a small 
group, they have the potential to make an important 
contribution to our economy. If their status is regularized and 
they are placed on a path to becoming U.S. citizens, they would 
be able to get a college education and a well-paying job. The 
DREAM Act would vastly increase educational attainment, 
regardless of in-state tuition provisions. It would cause a 
much higher percentage of undocumented immigrant children to 
finish high school. Further, it would cause a much higher 
percentage of undocumented high school graduates to go to 
college.
    The DREAM Act would allow students who graduate from 
college to use their degrees in the fields that education 
prepares them for. This makes the educational investment worth 
it both for the students, but more importantly for the rest of 
us. It will help us as well as them because we have more 
productive citizens who fill needed job openings and who can 
pay taxes. And the United States needs these young workers, who 
are presently prevented from working through no fault of their 
own.
    Our global competitiveness is enhanced by attracting bright 
young people such as the ones we have heard from today. We live 
in an open global economy, and we are continually competing 
against other countries. We want firms to locate and expand in 
the United States, creating jobs here rather than going 
offshore. In order to do that, we want to keep the smartest 
entrepreneurs and workers here.
    Sometimes we hear that our economy cannot handle more 
immigrants, but economic facts do not support this. In 2007, 
the United States leads the industrialized world in job 
creation, and our unemployment rate is among the lowest. 
Because our job creation is so strong, employers are 
complaining about a shortage of jobs. Steve Berchem, of the 
American Staffing Association, which represents staffing firms 
such as Manpower, Inc., reports that his companies are having 
difficulty in attracting enough skilled workers.
    Microsoft Chairman Bill Gates also reported a shortage of 
workers. Testifying on February 7th, 2007, before the Senate 
Committee on Health, Education, Labor, and Pensions, he said, 
and I quote, ``America's need for highly skilled workers has 
never been greater,'' and he called for an increase in the 
number of permanent residents, skipping the bureaucratic H1-B 
visa process altogether. He said, ``Barring high-skilled 
immigrants from entry into the U.S., and forcing the ones that 
are here to leave because they cannot obtain a visa, ultimately 
forces U.S. employers to shift development work and other 
critical projects offshore. If we can retain these research 
projects in the United States, by contrast, we can stimulate 
domestic job and economic growth.''
    In conclusion, passing the DREAM Act and granting young 
people the right to stay in the United States is a win-win 
situation. There are no reasonable arguments against it. In 
fact, America would benefit if every foreigner who graduated 
from college had a green card stapled to his diploma. As all of 
you wind down your lengthy negotiations and start the process 
of making a law on immigration reform, you should keep one 
question in mind. Why send the Martine Kalaws, the Tam Trans 
and the Maria Gonzalezes of the world back to their countries 
to compete against us here?
    Thank you very much.
    [The prepared statement of Ms. Furchtgott-Roth follows:]
              Prepared Statement of Diana Furchtgott-Roth
    Madam Chairman, members of the Committee, I am honored to be 
invited to testify before your Subcommittee today on the subject of the 
future of undocumented immigrant students.
    Currently I am a senior fellow at the Hudson Institute. From 
February 2003 until April 2005 I was chief economist at the U.S. 
Department of Labor. From 2001 until 2003 I served at the Council of 
Economic Advisers as chief of staff and special adviser. Previously, I 
was a resident fellow at the American Enterprise Institute. I have 
served as Deputy Executive Secretary of the Domestic Policy Council 
under President George H.W. Bush.
            the problems with our current immigration system
    We often hear that our immigration system is broken, and I'd like 
to illustrate this with an example. Harlem resident Dan-el Padilla is a 
brilliant classicist who came from the Dominican Republic at the age of 
4 and who was second in his class at Princeton in 2006. Mr. Padilla 
could not get legal status. His mother, a housecleaner, filed 
immigration papers with a lawyer, according to newspaper reports, but 
never heard anything. His brother is a U.S. citizen by birth.
    One would think that Mr. Padilla is the kind of person who America 
would welcome with open arms. He speaks perfect English, is completely 
assimilated, has a degree from one of our top universities, and loves 
America. He broke no laws by here.
    Mr. Padilla was awarded a two-year scholarship to Oxford University 
and left the country last fall knowing that he might not be able to 
return and see his family. Last month he received an H-1B visa, good 
for a year, from Princeton University to work part-time with Professor 
Harriet Flower, allowing him to travel to America.
    No doubt Mr. Padilla is glad to have his one-year visa. But why 
cannot such talent be rewarded with a green card? Do we really want him 
to pursue his career in the U.K. rather than at an American 
institution?
    Similarly, many undocumented children such as Mr. Padilla do not 
have the right papers due to missed deadlines and bureaucratic error. 
Nevertheless, their presence in America would benefit us because they 
are hard-working and talented, and produce streams of income taxes and 
Social Security payments to bolster our fiscal position.
    One indication of the potential benefits of undocumented immigrant 
children is to look at how well their peers--the legal immigrant 
children--do as they grow up. Many of these young immigrants become 
high-achieving students, then outstanding workers and entrepreneurs. 
Many of the top students at merit-based highs schools such as 
Stuyvesant High School in New York are children of immigrants. The 
undocumented immigrant children might do just as well, if not better, 
given the especially difficult circumstances that they had to overcome.
                      advantages of the dream act
    The Development, Relief, and Education for Alien Minors Act, known 
as the DREAM Act, seeks to solve the problem of undocumented children. 
It passed the Senate as part of comprehensive immigration reform in 
2006, sponsored by Richard Durbin (D-IL), Chuck Hagel (R-NE), and 
Richard Lugar (R-IN), and will shortly be reintroduced. Its companion 
House bill is sponsored by Lincoln Diaz-Balart (R-FL), Howard Berman 
(D-CA), and Lucille Roybal-Allard (D-CA).
    The bill seeks to regularize the status of young people ages 18 to 
24 who came to the United States before the age of 16; who have been in 
the country for 5 years or longer; and who have a high school diploma 
or GED. According to the Migration Policy Institute,\1\ 360,000 young 
people fit these criteria, and about 715,000 other young people ages 5 
to 17 could become eligible in the future. The total of 1,075,000 
potential workers represents 0.7%, less than 1 percent, of our labor 
force. Even if this number were to double or triple it would only be a 
small fraction of our workforce.
---------------------------------------------------------------------------
    \1\ Jeanne Batalova and Michael Fix, ``New Estimates of 
Unauthorized Youth Eligible for Legal Status under the DREAM Act,'' 
Immigration Backgrounder (October 2006, No. 1), Migration Policy 
Institute.
---------------------------------------------------------------------------
    Even though these undocumented young people are a small group, they 
have the potential to make an important contribution to our economy. If 
their status is regularized, and they are placed on a path to becoming 
U.S. citizens, they will be able to get a college education and a well-
paying job.
    The DREAM Act would vastly increase educational attainment 
regardless of the in-state tuition provisions. It would cause a much 
higher percentage of undocumented immigrant children to finish high 
school. Right now, according to the Migration Policy Institute piece, 
only 40 percent of undocumented Hispanic males do so. But if finishing 
high school is a ticket to legal status and increased earnings, 
presumably that number would rise.
    Further, the DREAM Act would cause a much higher percentage of 
undocumented immigrant high school graduates to go to college. 
Currently, fewer than 15 percent of undocumented high school graduates 
between 18 and 24 are in college. Since the DREAM Act conditions legal 
status on community college graduation, completion of 2 years towards a 
4-year degree, or 2 years service in the military, the number and 
percentage of college attendees would likely increase.
    The DREAM Act would allow students who graduate from college to use 
their degrees in the fields that their education prepares them for. 
This makes the educational investment worth it both for the students 
and for the rest of us. It will help us as well as them, because we can 
have more productive citizens who will fill needed job openings and who 
will pay taxes. And the more young educated workers in our economy, the 
better would be the outlook for our Medicare and Social Security 
programs.
    The United States needs these young workers who are presently 
prevented from working through no fault of their own. Immigration 
increases wages of native-born Americans. Our global competitiveness is 
enhanced by attracting bright young people such Mr. Padilla, as well as 
the ones we have heard from today.
    We live in an open, global economy, and we continually compete 
against other countries. We want firms to locate and expand in the 
United States, creating jobs here rather than going offshore. In order 
to do that, we want to keep the smartest entrepreneurs and workers 
here.
                  the united states needs more workers
    Sometimes we hear that our economy cannot handle more immigrants. 
But economic facts do not support this. In 2007, the United States 
leads the industrialized world in job creation, and our unemployment 
rate is among the lowest in the industrialized world. In contrast, 
unemployment rates in most other countries are far higher. In March 
2007, the latest month for which comparable data are available, 
Americans had an unemployment rate of 4.4 percent, while unemployment 
rates in the Eurozone were 7.2 percent; in France, 8.7 percent; in 
Germany, 7.0 percent; in Spain, 8.3 percent; and in Canada, 6.1 
percent. Only Japan had a lower rate than the United States, and its 
economy is characterized by a slower rate of GDP growth.
    Because our job creation is so strong, employers are complaining 
about a shortage of jobs. Steve Berchem of the American Staffing 
Association, which represents staffing firms such as Manpower, Inc, 
reports that his companies are having difficulty recruiting enough 
skilled workers. According to Mr. Berchem, ``Our members are saying 
that they have more job orders than qualified candidates to fill them, 
especially for skilled and professional positions. Demand has increased 
for recruiting and permanent placement services because our members' 
clients are having difficulty filling positions due to lack of 
available talent. The U.S. staffing industry needs a larger labor 
supply to meet growing demand.''
    Microsoft Chairman Bill Gates also reported a shortage of workers. 
Testifying on February 7, 2007 before the Senate Committee on Health, 
Education, Labor, and Pensions, he said that ``America's need for 
highly skilled workers has never been greater,'' and called for an 
increase in the number of permanent residents, skipping the 
bureaucratic H1-B visa process altogether.
    Mr. Gates stated that ``Barring high skilled immigrants from entry 
to the U.S., and forcing the ones that are here to leave because they 
cannot obtain a visa, ultimately forces U.S. employers to shift 
development work and other critical projects offshore. . . . If we can 
retain these research projects in the United States, by contrast, we 
can stimulate domestic job and economic growth.''
    The students we heard from this morning, Martine Mwanj Kalaw and 
Marie Nazareth Gonzales, are the types of students to whom Mr. Gates is 
referring.
    As well as needing workers now, we need future workers to keep our 
Social Security and Medicare funds in balance. According to the Summary 
of the 2007 Annual Social Security and Medicare Trust Fund Reports: \2\
---------------------------------------------------------------------------
    \2\ John L. Palmer and Thomas R. Saving, ``A Summary of the 2007 
Annual Reports: A Message to the Public,'' Social Security and Medicare 
Boards of Trustees, Social Security Online, http://www.ssa.gov/OACT/
TRSUM/trsummary.html, Accessed May 16, 2007.

        ``The financial condition of the Social Security and Medicare 
        programs remains problematic; we believe their currently 
        projected long run growth rates are not sustainable under 
        current financing arrangements. Social Security's current 
        annual surpluses of tax income over expenditures will soon 
        begin to decline and then turn into rapidly growing deficits as 
        the baby boom generation retires. Medicare's financial status 
---------------------------------------------------------------------------
        is even worse.''

The more young talented workers in our economy, the better will be the 
outlook for our Medicare and Social Security programs.
    Many scholars, such as Nicholas Eberstadt of the American 
Enterprise Institute and Nobel Prize-winning economist Gary Becker of 
the University of Chicago, have documented the detrimental effect on 
developed economies of the decline in birth rates. Fewer workers are 
forced to look after more retired workers, leading to tax increases and 
economic stagnation. Immigration presents a tremendous potential 
benefit to increase the number of future taxpayers.
    The widely-respected Council on Competitiveness has called on the 
United States to increase its supply of skilled workers. The Council's 
National Innovation Initiative identified talent as the nation's key 
innovation asset and specifically highlighted the need to continue to 
attract the best and brightest from around the world.\3\ The Council's 
recent Competitiveness Index describes a broad range of trends that are 
intensifying our need for high skilled immigrants-from the aging of the 
American population, to the declining number of Americans receiving 
advanced degrees in science and engineering, to the incredible 
contributions of immigrant entrepreneurs to our economy.\4\
---------------------------------------------------------------------------
    \3\ Council on Competitiveness, ``Innovate America: Thriving in a 
World of Challenge and Change,'' 2005.
    \4\ Council on Competitiveness, ``Competitiveness Index: Where 
America Stands,'' November 2006.
---------------------------------------------------------------------------
     positive effects of immigrants on wages of native-born workers
    Some, such as Harvard's George Borjas, think that we should keep 
skilled immigrants out because they lower wages of native-born workers. 
But economic research shows the opposite. Immigration has widespread 
helpful effects on the economy and may cause wages to rise, because 
immigrant labor does not substitute for native labor, but complements 
it. Immigrants buy goods and services, increasing aggregate demand in 
the economy and creating jobs.
    Professors Gianmarco Ottaviano of the University of Bologna and 
Giovanni Peri of the University of California, Davis,\5\ showed that 
immigration causes native-born American wages to increase. According to 
a new study \6\ released in March 2007, immigrants raised the wages of 
most native-born workers in California, a high-immigrant state, by 4% 
over 14 years, with no change for low-skill workers and a 7% change for 
high skill workers.
---------------------------------------------------------------------------
    \5\ Gianmarco I.P. Ottaviano and Giovanni Peri, ``Rethinking the 
Effects of Immigration on Wages,'' National Bureau of Economic Research 
Working Paper No. 12497, August 2006.
    \6\ Giovanni Peri, ``Immigrants' Complementarities and Native 
Wages: Evidence from California,'' National Bureau of Economic Research 
Working Paper No. 12956, March 2007.
---------------------------------------------------------------------------
    Other economists have also found little negative effect on wages. 
Senior Economist Pia Orrenius of the Federal Reserve Bank of Dallas \7\ 
finds a slight increase in wages for professionals and a slight decline 
for manual workers from immigration of less than 1%. Professor David 
Card of the University of California, Berkeley,\8\ finds a decrease in 
wages of no more than 3% among low-skill workers in high immigrant 
cities such as Miami and Los Angeles, and smaller effects in other 
cities and occupational groups.
---------------------------------------------------------------------------
    \7\ Pia M. Orrenius and Madeline Zavodny, ``Does Immigration Affect 
Wages? A Look at Occupation-Level Evidence,'' IZA Discussion Papers 
2481 (December 2006), Institute for Study of Labor (IZA).
    \8\ David Card, ``Immigrant Inflows, Native Outflows, and the Local 
Market Impacts of Higher immigration,'' Journal of Labor Economics 19 
(January 2001, No. 1), pp. 22-64.
---------------------------------------------------------------------------
    Professor George Borjas of Harvard University \9\ finds the most 
significant effect of immigration on wages. Yet even he concluded in a 
2005 study that immigrants actually raised average wages of Americans 
by 0.1% and only lowered the wages of the low-skilled, those without a 
high school diploma, by 5%. This means that America has a net gain from 
immigrants, although smaller than other studies. Mr. Borjas gets his 
results by assuming that immigrants and native-born Americans are 
perfect substitutes, and that physical capital is fixed and doesn't 
vary with additional immigration. Mr. Borjas measures immigration's 
effect on wages assuming that no other changes take place in the 
economy, while Mr. Ottaviano and Mr. Peri measure wages after labor and 
capital respond.
---------------------------------------------------------------------------
    \9\ George J. Borjas and Lawrence F. Katz, ``The Evolution of the 
Mexican-Born Workforce in the United States,'' National Bureau of 
Economic Research Working Paper No. 11281, April 2005.
---------------------------------------------------------------------------
    However, Mr. Borjas's assumptions obviously don't match what goes 
on in the United States. A casual look at Silicon Valley, where 
immigrants head up a disproportionate number of high-tech startups, 
shows that immigrants fill specific niches. Not only do immigrants 
pursue certain fields and occupations, but capital flows into Silicon 
Valley to support their efforts.
    In conclusion, passing the DREAM Act and granting young people the 
right to stay in the United States is a win-win situation. There are no 
reasonable arguments against it. In fact, America would benefit if 
every foreigner who graduated from college had a green card stapled to 
his diploma.
    As Congress winds down its lengthy negotiations over immigration 
reform, it should keep one question in mind: why send the Martine 
Kalaws and the Tam Trans and the Marie Gonzalezes of the world back to 
their home countries to compete against us?
    Thank you for giving me the opportunity to appear before you today. 
I would be glad to answer any questions.

    Ms. Lofgren. Thank you very much. Dr. Cameron.

TESTIMONY OF ALLAN CAMERON, Ph.D., RETIRED HIGH SCHOOL COMPUTER 
     SCIENCE TEACHER, CARL HAYDEN HIGH SCHOOL, PHOENIX, AZ

    Mr. Cameron. Good morning, and thank you, Chairwoman 
Lofgren, Ranking Member King, and Members of the Subcommittee. 
I am a recently retired teacher from Carl Hayden High School in 
Phoenix, Arizona. Although I was employed as a computer science 
teacher, I spent much of my last 6 years with fellow teacher 
Fredi Lajvardi and the Carl Hayden Robotics Team. We 
participated in the FIRST, For Inspiration and Recognition of 
Science and Technology, Robotics Competition, which combines 
the excitement of sport with science and technology. It has 
changed the culture of our school and the dreams of our 
students.
    The Carl Hayden Falcon Robotics Team made news a few years 
ago when their underwater robot competed in the university 
category and won. It demonstrated what our kids, actually what 
all kids, were capable of achieving. Beating MIT that year was 
big news. We consistently rank among the top three schools in 
the university division, still beating MIT and other 
universities. Canada is hosting this year's underwater 
competition. We will not be attending because we probably have 
undocumented students on our team. Besides, MIT deserves a 
chance.
    Carl Hayden High School has over 2,000 students; 92 percent 
are Latino. It is estimated that 60 to 80 percent of our 
student body are undocumented, brought into this country by 
their parents as children. There are 1.7 million other 
undocumented minors transplanted into our society. While living 
in the U.S. and being educated in our school system, these 
children become Americanized. They repeat the Pledge of 
Allegiance, liberty and justice for all. They root for their 
favorite baseball and football teams, and they ponder their 
future.
    Cindy's parents brought her here to the United States from 
Mexico at the age of 12. When she was a high school sophomore 
on the robotics team, she asked Mr. Lajvardi and me if we would 
help her prepare for college. We had her taken out of the ESL 
classes and enrolled in honors classes, eventually earning 
college credits while in high school. Graduating with top 
marks, she entered the local community college to become a 
nurse. She is finishing--this month--her second year this 
month, and when she receives her RN certificate she will 
continue her education in a pre-medical program. She wants to 
become a pediatrician.
    Of the 12 graduating seniors this year on our robotics 
club, 11 have been admitted to Arizona State University, nine 
with ASU scholarships. Six will be in engineering, which is 
phenomenal for a high school. It is over the top for Latinos. 
And half of them are women, which is another whole scale that 
we are--one in science and one in pre-medicine, like Cindy. 
This has been the way it has been going in our club for the 
last 5 years.
    65,000 undocumented students graduate from U.S. high 
schools each year. The men, by law, must register for Selective 
Service, yet they cannot volunteer to serve our country in the 
military. Valedictorians and straight A students can go to 
college and receive degrees, yet cannot be employed, even in 
fields where we have critical shortages of skilled workers. A 
routine traffic stop can result in immediate deportation, a 
loss of our intellectual capital that will take years to 
replace. While American-educated Cindy is unemployed, we try to 
recruit 10,000 South Korean nurses to immigrate into the U.S. 
to ease the projected shortage of nurses.
    The story of the kids in the Falcon Robotics Team has been 
published in magazines like Wired, Reader's Digest, and high 
school textbooks. Warner Brothers has bought the movie rights 
to the young engineers' story. Hardworking kids who can 
overcome all obstacles and compete with the best is an American 
tale. The gritty students of the Falcon Robotics Team have 
become role models to young people nationwide, positive 
examples of the American can-do spirit. Yesterday at the FDR 
Memorial I read the inscription, ``No country, however rich, 
can afford the waste of its human resources.'' Our bright, 
moral, hardworking students need the opportunities to serve our 
country.
    If two public school teachers in downtown Phoenix can 
cultivate talented students into champions of the community, 
assets, not liabilities, imagine what we can accomplish with 
the help of the United States' legislature. Imagine what can 
happen if we don't. Thank you.
    [The prepared statement of Mr. Cameron follows:]
                  Prepared Statement of Allan Cameron
    Good morning and thank you, Chairwoman Lofgren, Ranking Member 
King, and members of the Subcommittee.
    I am a recently retired teacher from Carl Hayden High School in 
Phoenix, Arizona. Although I was employed as a computer science 
teacher, I spent much of the last six years with fellow teacher, Fredi 
Lajvardi, and the Carl Hayden robotics team. We participated in the 
FIRST (For Inspiration and Recognition of Science and Technology), 
Robotics Competition, which combines the excitement of sport with 
science and technology. It has changed the culture of our school and 
the dreams of our students.
    The Carl Hayden Falcon Robotics team made news a few years ago when 
their underwater robot competed in the university category and won! It 
demonstrated what our kids (actually, all kids) were capable of 
achieving. Beating MIT that year was big news. We consistently rank 
among the top three schools, still beating MIT and other universities! 
Canada is hosting this year's competition. We will not be attending 
because we probably have undocumented students on our team. Besides, 
MIT deserves a chance!
    Carl Hayden High School has over 2,000 students; 92% are Latino. It 
is estimated that 60% to 80% of our students are undocumented, brought 
into this country by their parents as children. There are 1.7 million 
other undocumented minors transplanted into our society. While living 
in the U.S. and being educated in our school system, these children 
become ``Americanized.'' They repeat the Pledge of Allegiance (``. . . 
liberty and justice for all''), root for their favorite baseball and 
football teams, and ponder their future.
    Cindy's parents brought her into the United States from Mexico at 
the age of 12. When she was a high school sophomore on the robotics 
team, she asked Mr. Lajvardi and me if we would help her prepare for 
college. We had her taken out of ESL classes and enrolled in honors 
courses, eventually earning college credits while in high school. 
Graduating with top marks, she entered the local community college to 
become a nurse. She is finishing her second year this month, and when 
she receives her RN certificate, she will continue her education in a 
pre-medical program. She wants to become a pediatrician.
    Of the 12 graduating seniors in the Robotics club this year, 11 
have been admitted to Arizona State University, nine with ASU 
scholarships, six will be in engineering, one in science and one in 
pre-medicine, like Cindy. That has been our trend for the last five 
years.
    Sixty-five thousand undocumented students graduate from U.S. high 
schools each year. The men, by law, must register for Selective 
Service, yet cannot volunteer to serve our country in the military. 
Valedictorians and straight A students can go to college and receive 
degrees, yet cannot be employed, even in fields where we have a 
critical shortage of skilled workers. A routine traffic stop can result 
in immediate deportation, a loss of our intellectual capitol that will 
take years to replace. While American-educated Cindy is unemployed, we 
try to recruit 10,000 South Korean nurses to immigrate into the U.S. to 
ease the projected shortage of nurses.\1\
---------------------------------------------------------------------------
    \1\ The US to recruit 10,000 South Korean nurses, 18 April 2006, 
http://www.workpermit.com/news/2006_04_18/us/
the_us_to_recruit_10000_nurses.htm
---------------------------------------------------------------------------
    The story of the kids on the Falcon robotics team has been 
published in magazines like Wired and Reader's Digest and in high 
school textbooks. Warner Brothers has bought the movie rights to the 
young engineers' story. Hard-working kids who can overcome all 
obstacles and compete with the best is an American tale. The gritty 
students of the Falcon Robotics team have become role models to young 
people nation wide--positive examples of the American can-do spirit.
    Yesterday at the FDR Memorial, I read the inscription, ``No 
country, however rich, can afford the waste of its human resources.'' 
Our bright, moral, hard-working students need the opportunities to 
serve our country.
    If two teachers in downtown Phoenix can cultivate talented students 
into champions of the community, imagine what we can accomplish with 
the help of United States legislators. Imagine what can happen if we 
don't.
    Thank you.

    Ms. Lofgren. Thank you very much, Dr. Cameron. Mr. 
Merisotis.

          TESTIMONY OF JAMIE P. MERISOTIS, PRESIDENT, 
             INSTITUTE FOR HIGHER EDUCATION POLICY

    Mr. Merisotis. Thank you very much for this opportunity to 
be here. Improving access to higher education continues to be 
one of the most important investments that we can make in our 
collective well-being. The simple fact remains that increasing 
educational opportunities results in tremendous public, 
private, social, and economic benefits. We know that workers 
who have gone to college tend to have higher salaries, higher 
savings, more overall productivity, better health, and 
increased life expectancy. Higher earnings for college 
graduates result in more revenue for government expenditures 
through increased tax collections and through budget savings 
from avoided social expenditures. The social benefits of higher 
education range from higher voting rates to more charitable 
giving and volunteerism. In short, by investing in those who 
might not otherwise go to college, we are investing in our 
united future and well-being. It is not simply that it is the 
right thing to do, but that it is in our collective economic 
and social self-interest to do so.
    In today's America, realizing the American dream is almost 
impossible without some post-secondary education. 
Unfortunately, not everyone who graduates from high school and 
is qualified to go to college is able to equally and adequately 
benefit from post-secondary education. Many immigrants face 
significant barriers in gaining access to, and succeeding in, 
higher education. These prospective college students must 
struggle with inadequate finances, heavy work and family 
responsibilities, varied academic backgrounds, limited English 
proficiency, and a lack of knowledge about the American system 
of higher education. Even for immigrants who arrive in the 
United States as children, as we saw from the prior panel, 
navigating the American educational system may not be easy. 
Many young immigrants struggle to learn English and keep up 
with their classes in elementary and secondary school. Foreign-
born teenagers age 15 to 17 make up about 8 percent of that age 
group overall in the total population, but represent almost 25 
percent of high school dropouts. Undocumented students may be 
less motivated to complete high school if they believe that 
higher education and the better paying jobs available to 
someone with a college degree to be an unattainable goal. 
Undocumented immigrant students face an array of barriers to 
college access and success. In a time of rising college costs, 
when the average tuition and fees for a public university have 
increased by 96 percent over the last decade, many of these 
students must pay out-of-state tuition, and in some cases are 
even charged international student rates.
    Even in the 10 States that currently offer in-state tuition 
to undocumented students who have graduated from State high 
schools, undocumented students are not eligible for the Federal 
and State financial aid that assists their low-income 
classmates. They also cannot legally work to support themselves 
while in college. They cannot even legally drive themselves to 
their college classes, a burden for those who must live with 
their parents in order to be able to afford to attend college. 
Faced with these obstacles, students who have lived in the 
United States for much of their lives may well watch their high 
school classmates go to a college that they cannot afford, and 
then take jobs for which they will not be able to be legally 
eligible, even if they can manage to complete a college degree.
    As a result, the investment already made in these students' 
primary and secondary education has no chance of paying off for 
the Nation. If you consider what our national workforce needs 
are in the specific sense of human capital, it is clear we are 
looking at an enormous shortage of educated workers in the not-
too-distant future. Already we are seeing corporations 
recruiting overseas in critical workforce sectors like 
technology, and by 2020 we will be looking at an employment gap 
of about 14 million people needed to fill jobs that require a 
college education, according to Census Bureau projections. 
Investing in those who are already here is our best hope for 
remaining competitive on a global scale.
    Congress can address these deficiencies in educational and 
economic competitiveness by making comprehensive immigration 
reform a reality and by passing the DREAM Act. The DREAM Act is 
a common-sense piece of bipartisan legislation that provides 
these talented and industrious future workers a pathway to 
citizenship so that they can support themselves while attending 
college, and eventually use their college education to pursue 
their professional goals and aspirations as American citizens. 
Immigrant students have the capacity, the motivation, and in 
many cases the academic preparation needed to complete a 
college education, but too many of these students are forced to 
grapple with a system that was not designed to address the 
modern day barriers to their success.
    I urge you to implement the simple, rational policy 
adjustments contained in the DREAM Act that recognize America's 
changing population and the important role immigrants play in 
our future global economic leadership.
    Thank you very much.
    [The prepared statement of Mr. Merisotis follows:]
                Prepared Statement of Jamie P. Merisotis
    Madam Chairwoman and Members of the Subcommittee:
    Thank you for this opportunity to appear before the Subcommittee on 
the matter of undocumented immigrant students and comprehensive 
immigration reform.
    Improving access to higher education continues to be one of the 
most important investments that we can make in our collective well-
being. The simple fact remains that increasing educational 
opportunities results in tremendous public, private, social, and 
economic benefits. We know that workers who have gone to college tend 
to have higher salaries, higher savings, more overall productivity both 
professionally and personally, better health, and increased life 
expectancy. For example, national data show that U.S. workers over the 
age of 18 with a high school diploma earn an average of about $27,000 
annually, while those with a bachelor's degree earn an average of more 
than $51,000, or nearly double that amount. Higher earnings for college 
graduates result in more revenue for government expenditures through 
increased tax collections and through budget savings from avoided 
social service expenditures. Increasing the number of college graduates 
saves millions of dollars in avoided social costs every year, as a 
result of improved health, lower crime, and reduced welfare and 
unemployment. The social benefits of higher education range from higher 
voting rates to more charitable giving and volunteerism. In short, by 
investing in those who might not otherwise go to college, we are 
investing in our united future and well-being. It's not simply that 
it's the right thing to do, but that it is in our collective economic 
and social self-interest to do so.
    For many immigrants, the United States is a place where, through 
hard work and perseverance, they hope to achieve better lives for 
themselves and their families. But in today's America, realizing the 
American Dream is almost impossible without some postsecondary 
education. Unfortunately, not everyone who graduates from high school 
and is qualified to go to college is able to equally and adequately 
benefit from postsecondary education. Many immigrants face significant 
barriers in gaining access to and succeeding in higher education. As a 
recent report published by the Institute for Higher Education Policy 
\1\ demonstrates, these prospective college students must struggle with 
inadequate finances, heavy work and family responsibilities, varied 
academic backgrounds, limited English proficiency, and a lack of 
knowledge about the American system of higher education--all of which 
can affect their ability to navigate the complex postsecondary 
admissions and financial aid processes, and the equally challenging 
process of earning a postsecondary credential.
---------------------------------------------------------------------------
    \1\ The Institute for Higher Education Policy (IHEP) is an 
independent, nonprofit organization that is dedicated to access and 
success in postsecondary education around the world. Established in 
1993, IHEP uses unique research and innovative programs to inform key 
decision makers who shape public policy and support economic and social 
development. The Institute's work addresses an array of issues in 
higher education, ranging from higher education financing to 
technology-based learning to quality assurance to minority-serving 
institutions.
---------------------------------------------------------------------------
    Even for immigrants who arrive in the United States as children, 
navigating the American educational system may not be easy. Many young 
immigrants struggle to learn English and keep up with their classes in 
elementary and secondary school. A recent study of educational barriers 
for Latino immigrants in Georgia, many of whom were undocumented, found 
that these children and their parents had a limited understanding of 
how American schools work. Some parents didn't understand that they 
needed certain documents to enroll their children in school or believed 
that they would have to pay tuition or buy books. While they were 
interested in helping their children succeed in school, these parents 
also found it difficult to communicate with teachers and administrators 
when their children were having problems.
    High school drop-out rates are high among young immigrants. In 
2000, foreign-born teenagers ages 15 to 17 made up about 8 percent of 
that age group in the total U.S. population but represented almost 25 
percent of high school drop-outs. Undocumented students, in particular, 
may be less motivated to complete high school if they believe higher 
education, and the better-paying jobs available to someone with a 
college degree, to be an unattainable goal. For many young adults from 
low-income immigrant families, simply graduating from high school 
prepared for college means having already overcome considerable 
obstacles.
    Immigrants who actually enroll in higher education make up 12 
percent of undergraduate college students--a percentage that makes this 
group comparable in numbers to Hispanic and Black students as well as 
students with disabilities. However, unlike these other groups, 
immigrant college students have received relatively little attention in 
the public policy arena. Immigrants who do enroll in college also face 
additional barriers to persistence and degree completion. Immigrant 
students have higher unmet financial need than the average 
undergraduate, are more likely to enroll in community colleges or 
private for-profit institutions, and more often earn certificates or 
associate's degrees rather than bachelor's degrees.
    The Hispanic immigrant population as a whole is particularly 
disadvantaged when it comes to gaining access to higher education. 
Latino immigrants--especially those from Mexico and Central America--
are more likely than other immigrants to drop out before completing 
high school, even if they immigrated to the United States during 
childhood. Latino immigrants are underrepresented in the undergraduate 
student population, have low rates of bachelor's degree completion, and 
are more likely than immigrants from other regions to leave school 
without completing any credential. These facts, taken in combination, 
paint a picture of an immigrant group for whom college access and 
success remain significant challenges.
    Undocumented immigrant students, the majority of whom are Latino, 
face all the barriers described above and more. In a time of rising 
college costs, when the average tuition and fees for a public 
university have increased by 96 percent over the last decade, many of 
these students must pay out-of-state tuition, or in some cases, even 
the rate charged to international students. Even in the ten states that 
currently offer in-state tuition to undocumented students who have 
graduated from state high schools, undocumented college students face 
significant barriers to college enrollment and completion. They are not 
eligible for the federal and state financial aid that assists their 
low-income classmates. They also cannot legally work to support 
themselves while in college. They cannot even legally drive themselves 
to their college classes, a burden for those who must live with their 
parents in order to afford to attend college. Faced with these 
obstacles, students who have lived in the United States for much of 
their lives may well watch their high school classmates go on to a 
college education they cannot afford and then take jobs for which they 
will not be legally eligible, even if they can manage to complete a 
college degree. As a result, the investment already made in these 
students' primary and secondary education has no chance of paying off 
for the nation.
    If you consider what our national needs are in the specific sense 
of human capital, it's clear that we are looking at an enormous 
shortage of educated workers in the not-too-distant future. Already, we 
are seeing corporations recruiting overseas in critical workforce 
sectors like technology, and by 2020, we will be looking at an 
employment gap of about 14 million people needed to fill jobs that 
require a college education, according to Census Bureau projections. 
Investing in those who are already here--including both legal and 
undocumented immigrants--is our best hope for remaining competitive on 
a global scale.
    Recent international data from the Organization for Economic 
Cooperation and Development indicate that the United States now stands 
in eighth place in the proportion of 25 to 34 year olds who have a 
college degree. Far ahead of the U.S. are Canada, Japan, Korea, and 
several other nations, including many of the Scandinavian countries. 
Other European nations and Australia are close on our heels. We expect 
that as a result of what is known as the Bologna Process, which is a 
European-wide agreement to invest in higher education on a large scale, 
the U.S. will fall further behind more of the European nations in just 
the next few years. This precipitous decline in such a relatively short 
time frame tells an important story about our inability to sustain the 
investments we have already made in our domestic higher education. 
Leaving behind undocumented immigrants who are committed to earning a 
college degree and making a contribution to their adopted country 
simply makes no sense given the nation's future economic and workforce 
needs.
    Congress can address these deficiencies in educational and economic 
competitiveness by making comprehensive immigration reform a reality 
and by passing the Development, Relief, and Education for Alien Minors 
(DREAM) Act. The DREAM Act is a common sense piece of bipartisan 
legislation that provides these talented and industrious future workers 
with a pathway to citizenship so that they can support themselves while 
attending college and eventually use their college education to pursue 
their professional goals and aspirations as American citizens. It also 
makes it easier for states to offer in-state tuition and financial aid 
to students, regardless of their immigration status. Put simply, these 
two changes would make college a more realistic option for deserving 
students who have met the same rigorous academic requirements as their 
college-bound peers, but who now lack access to the range of financial 
assistance provided to other students in their states. In addition, it 
would allow them to work legally in the jobs for which a college 
education prepares them.
    Without legislation like the DREAM Act to increase access to higher 
education for the students most in need of assistance, the United 
States risks falling behind in the global economy of the 21st century. 
The potential consequences of inaction are serious: a workforce without 
the skills needed to fill essential jobs, reduced economic 
productivity, increased social welfare costs, an electorate less able 
to contribute to an effective democracy. Increased access to higher 
education benefits individual students, to be sure, but its most 
important benefits are to the nation.
    Immigrant students have the capacity, motivation, and in many 
cases, the academic preparation needed to complete a college education, 
but too many of these students are forced to grapple with a system that 
was not designed to address the modern day barriers to their success. I 
urge the 110th Congress to implement the simple, rational policy 
adjustments contained in the DREAM Act that recognize America's 
changing population, and the important role immigrants play in our 
future global economic leadership.
    Thank you again for this opportunity to appear before the 
Subcommittee on this important issue.

    Ms. Lofgren. Dr. Kobach.

     TESTIMONY OF KRIS W. KOBACH, Ph.D., PROFESSOR OF LAW, 
       UNIVERSITY OF MISSOURI--KANSAS CITY SCHOOL OF LAW

    Mr. Kobach. Thank you, Madam Chairman. Madam Chairman, 
Members of the Committee, it is an honor to be before you 
today. In addition to being a law professor who teaches 
constitutional law and immigration law, I am also a litigator 
who litigates on behalf of the Immigration Reform Law 
Institute, which represents U.S. citizens, and supports the 
interests of immigration enforcement. Of particular relevance 
in that regard is the fact that I am representing U.S. citizens 
in the case of Day v. Bond, which is an instance where U.S. 
citizens are being discriminated against by a university, in 
this case the Kansas university system, that provides the 
benefits of in-state tuition rates at roughly one-third the 
cost that the U.S. citizen plaintiffs are paying in that case.
    When I did serve in the Justice Department, I was Attorney 
General Ashcroft's chief adviser on immigration law. As you are 
well aware, and as Representative King mentioned, in September, 
1996, Congress passed its Immigration Reform Act of that year, 
and a central provision of that act, now codified at title 8, 
section 1623 of the U.S. Code, is the provision that says in so 
many words an alien who is not lawfully present in the United 
States shall not be eligible for any post-secondary education 
benefit unless every citizen in the United States is also 
eligible for that benefit; in other words, no in-state tuition 
or grants unless U.S. citizens from out of State also get those 
grants. It was a simple non-discrimination provision that said 
illegal aliens should not be discriminated in favor of and 
against U.S. citizens.
    Congress in 1996 I think did not anticipate that some 
States might simply disregard Federal law, but that is 
precisely what happened. In 1999, the California legislature 
passed a bill that gave in-state tuition to illegal aliens. 
Governor Gray Davis, many of you may not know, vetoed that bill 
in 2000. In his veto message, he said Federal law prevents us 
from doing this. He also said in his veto message it would cost 
the State $63.7 million to subsidize this education. 
Undeterred, the California legislature came right back and 
passed the bill again. In 2001, in a slightly different 
political climate, Governor Davis signed the bill, ignoring his 
previous veto message.
    Most States that have considered such bills giving in-state 
tuition to illegal aliens have rejected the idea; however, nine 
States did follow California's example. Now, in relatively 
small States, like Kansas, it is about 300 students who are 
taking advantage of this benefit. In big States, like Texas, it 
is about 6,000 students. And in California, it is estimated 
that over 16,000 students are taking advantage of this in-state 
tuition.
    I would argue that this is a bad idea for three basic 
reasons, and that the DREAM Act, which essentially 
retroactively legalizes this giving of in-state tuition to out-
of-state--to undocumented aliens, is also a bad idea for three 
reasons. The first is that it discriminates against U.S. 
citizens. For example, in Kansas, take the case of a Missouri 
student who has played by the rules all his life. He then goes 
to Kansas University and pays roughly three times the amount of 
tuition that an undocumented student would pay. This is 
particularly harmful at a time when the cost of education is 
going rapidly beyond the reach of many Americans. College costs 
rose 35 percent between 2005 and 2007. That is after adjusting 
for inflation. Two-thirds of college students now graduate with 
debt, with an average of just under $20,000 worth of debt. And 
in an era of limited resources, I would argue that U.S. 
Citizens should be first to get those resources.
    Second, it places a heavy burden on taxpayers. In Texas, it 
is estimated that the in-state tuition for illegal aliens costs 
taxpayers $40 to $50 million a year. In California, it is over 
$100 million a year. But perhaps most importantly, it 
discriminates against those students who are here lawfully. 
Indeed, under the terms of some of the State statutes and under 
the terms of the DREAM Act, in order to qualify for the 
benefits you have to be illegally present in the country.
    So we heard from the first panel from three individuals who 
were here under different circumstances. Ms. Kalaw and Ms. Tran 
would actually not be helped. And if the three of them were to 
attend a university, only Ms. Gonzalez would get the benefit of 
in-state tuition, and would get the benefit of the Z visa, 
which is an extremely easy way of remaining in the United 
States, whereas Ms. Kalaw and Ms. Tran would pay three to four 
times as much. Now where is the rationality in that? It does 
not make sense that those lawfully present, like the latter two 
of those witnesses, should be treated differently because they 
have tried and struggled to follow the law.
    Furthermore, aliens inside and outside the United States 
are sent this message. If you go through the hoops and you go 
through the bureaucratic hassle of trying to follow the law, 
which is admittedly difficult, then we will punish you in the 
United States by making you have a standard student visa, an F, 
M or J visa, which will not automatically renew like the Z visa 
will, and will be a tough road for you as you attempt to adjust 
your status. But if you are illegally here, you get in-state 
tuition and you get a much easier path to citizenship. I would 
submit that that is patently unfair.
    [The prepared statement of Mr. Kobach follows:]
                  Prepared Statement of Kris W. Kobach
                              introduction
    Mr. Chairman and Members of the Committee, it is an honor to appear 
before you today to discuss the issue of states offering in-state 
tuition rates to illegal aliens in violation of federal law, and the 
impact that Senate Bill 2611 would have in this area.
    I come before you today in my capacity as a Professor of 
Constitutional Law and Immigration Law at the University of Missouri 
(Kansas City). My testimony should not be taken as the official 
position of my institution, which does not take positions on pending 
legislation.
    I am also a practicing attorney who litigates regularly in the area 
of immigration and federal preemption on behalf of the Immigration and 
Reform Law Institute (IRLI). IRLI is a public interest litigation 
institute that represents the interests of U.S. citizens and supports 
the enforcement of immigration law in civil suits around the country. 
Often, IRLI is the only litigating entity with the resources and 
experience to explain the legal basis for the enforcement of this 
country's immigration laws.
    Of particular relevance to this hearing is the fact IRLI is 
representing the plaintiff U.S. citizens in the case of Day v. Bond, a 
challenge to Kansas's provision of in-state tuition rates to illegal 
aliens. I am lead counsel in that case. IRLI is also representing the 
plaintiffs in the case of Martinez v. Board of Regents, a similar case 
in California.
    Between 2001 and 2003, I served as White House Fellow and Counsel 
to the U.S. Attorney General at the Department of Justice. In that 
capacity, I was the Attorney General's chief adviser on immigration 
law.
        the history of in-state tuition rates for illegal aliens
    In September 1996, Congress passed the landmark Illegal Immigration 
Reform and Immigrant Responsibility Act (IIRIRA). Legislators in some 
states--most notably California--had already raised the possibility of 
making in-state tuition rates available to illegal aliens who attend 
public universities. To prevent such a development, IIRIRA's drafters 
inserted a provision that prohibited any state from doing so, unless 
the state also provided the same discounted tuition to all U.S. 
citizens. It was written in plain language that any layman could 
understand:

        ``Notwithstanding any other provision of law, an alien who is 
        not lawfully present in the United States shall not be eligible 
        on the basis of residence within a State (or a political 
        subdivision) for any postsecondary education benefit unless a 
        citizen or national of the United States is eligible for such a 
        benefit (in no less an amount, duration, and scope) without 
        regard to whether the citizen or national is such a resident.'' 
        8 U.S.C. Sec. 1623

    Obviously, no state in the union would be interested in giving up 
the extra revenue derived from out-of-state students, Members of 
Congress reasoned, so this provision would ensure that illegal aliens 
would never be rewarded with a taxpayer-subsidized college education. 
What Congress did not foresee in 1996 was the willingness of some 
states to simply disobey federal law.
    However, that is precisely what happened. In 1999, Members of the 
California legislature pushed ahead with their plan to have taxpayers 
subsidize the college education of illegal aliens. Assemblyman Marco 
Firebaugh sponsored a bill that would make illegal aliens who had 
resided in California for three years during high school eligible for 
in-state tuition at California community colleges and universities. The 
bill passed both houses of the California Legislature.
    California Governor Gray Davis vetoed the bill in January 2000, 
stating clearly in his veto message that it would violate federal law: 
``Undocumented aliens are ineligible to receive postsecondary education 
benefits based on state residence. . . . IIRIRA would require that all 
out-of-state legal residents be eligible for this same benefit. Based 
on Fall 1998 enrollment figures . . . this legislation could result in 
a revenue loss of over $63.7 million to the state.''
    Undeterred, Representative Firebaugh introduced his bill again; and 
the California Legislature passed it again. In 2002, Governor Davis 
ignored his own veto message of 2000 and signed Firebaugh's bill 
offering in-state tuition rates to illegal aliens.
    Meanwhile, legislators in Texas had succeeded in passing their own 
version of the same bill. Over the next four years, interest groups 
lobbying for illegal aliens introduced the same legislation in most of 
the other states. The majority of state legislatures rejected the idea.
    However, eight more states followed the examples of California and 
Texas. Today, the ten states that offer in-state tuition to illegal 
aliens are: California, Illinois, Kansas, Nebraska, New Mexico, New 
York, Oklahoma, Texas, Utah, and Washington.
    In relatively small states like Kansas, the number of illegal 
aliens receiving this taxpayer-subsidized tuition is in the hundreds. 
However, in larger states where the benefit has been available for four 
years or more, the number is in the thousands. In Texas, approximately 
5,935 illegal aliens were receiving in-state tuition benefits in 2005. 
And in California, with its massive system of universities and 
community colleges, more than 16,000 illegal aliens are now receiving a 
taxpayer-subsidized higher education.
  why providing access to in-state tuition for illegal aliens is bad 
                                 policy
    In all of the ten states that are violating federal law in this 
manner, the in-state tuition laws make for shockingly bad policy. There 
are many reasons that this is true, but three are particularly salient.
    First, these laws discriminate against U.S. citizens. Neither an 
illegal alien nor a nonresident U.S. citizen is normally entitled to 
in-state tuition rates at a state's institutions of higher education. 
This is understandable, because in-state tuition eligibility is a 
valuable public benefit. It is a taxpayer-provided education subsidy 
that is worth well over $10,000 a year at most public universities. 
States accordingly reserve in-state tuition benefits for their own 
residents. However, if a state makes this benefit available to illegal 
aliens (whose legal residence is in another country), the state is 
discriminating against U.S. citizens (whose legal residence is in 
another state).
    This is a slap in the face to the law-abiding American citizen from 
out of state. For example, consider a student from Missouri who attends 
Kansas University. That Missouri resident has always played by the 
rules and obeyed the law. Yet Kansas University charges him triple what 
it charges an alien whose very presence in the country is a violation 
of federal law. This discriminatory treatment is particularly harmful 
in a time when the price of a four-year college education is beyond the 
reach of many U.S. citizens. College costs rose 35% during 2002-2007, 
after adjusting for inflation. And this upward trend is nothing new; 
the cost of college tuition and fees has been rising faster than 
consumer prices and personal income for the past twenty-five years. 
Two-thirds of college students now graduate with debt, and the amount 
of debt has risen dramatically in recent years, to an average of 
$19,200. In such an environment, taxpayer-subsidized tuition is 
extremely valuable, reducing what could otherwise constitute crippling 
financial burdens. In an era of severely limited resources, U.S. 
citizens should be first in line to receive those resources; they 
should not stand behind aliens who are openly violating federal law.
    Second, providing this subsidy for illegal aliens places a heavy 
burden on taxpayers. In contrast to out-of-state students who pay the 
full cost of their education, students eligible for in-state tuition 
receive a significant financial boost at taxpayer expense. When the 
number of illegal aliens taking advantage of this subsidy is 
significant, the costs become staggering. In Texas, for example, 
taxpayers pay an estimated 40 to 50 million dollars every year to 
subsidize the college education of illegal aliens. In California, the 
cost to taxpayers is much higher--well over $100 million a year.
    Third, these ten states are now encouraging aliens to violate 
federal immigration law. Indeed, under the terms of each of the state 
statutes, breaking federal law is a prerequisite that must be satisfied 
before the illegal aliens can receive the benefit. Each of the ten 
state statutes includes a provision that expressly denies in-state 
tuition to aliens lawfully attending college in the United States on an 
appropriate student visa (typically, an F, J, or M visa). An alien is 
eligible for in-state tuition only if he is breaking federal law by 
remaining in the United States.
    Aliens are sent this message: ``We encourage you to violate the 
law. If you actually obtain a valid visa to study here, we will 
penalize you by making you pay out-of-state tuition.'' This creates a 
perverse incentive structure in which the states directly reward 
illegal behavior and significantly undermine federal law.
    Imagine if a state enacted a law that rewarded state residents for 
cheating on their federal income taxes--by giving state tax credits to 
those who break federal tax laws. That is the equivalent of what these 
ten states have done. It is a direct financial subsidy to those who 
violate federal law.
                   the legal rights of u.s. citizens
    In July 2004, a group of U.S. citizen students from out-of-state 
filed suit in federal district court in Kansas to enjoin the state from 
providing in-state tuition rates to illegal aliens, on the grounds that 
Kansas is clearly violating federal law. Not only that, Kansas is 
violating the Equal Protection Clause of the U.S. Constitution by 
discriminating against them and in favor of illegal aliens. I am the 
lead attorney representing those U.S. citizens.
    The district judge did not render any decision on the central 
questions of the Kansas case. Instead, he avoided the merits of the 
issue entirely by ruling that the U.S. citizen plaintiffs lacked a 
private right of action to bring their statutory challenge and lacked 
standing to bring their Equal Protection challenge. That decision is 
currently being appealed in the U.S. Court of Appeals for the Tenth 
Circuit.
    Meanwhile, in December 2005, another group of U.S. citizen students 
filed a class-action suit in California state court. They too maintain 
that the state is violating federal law and the U.S. Constitution. 
Pursuant to a California civil rights statute, they are also seeking 
damages to compensate them for the extra tuition they have paid, over 
and above that charged to illegal aliens. A Yolo County Court found 
that the U.S. citizen plaintiffs did have standing and a private right 
of action, but ruled against them with little explanation. That 
decision is currently before the California Court of Appeals.
    These U.S. citizens are simply suing to enforce their statutory 
right not to be treated less favorably than illegal aliens when it 
comes to tuition rates. Congress gave them this statutory right eleven 
years ago. However, just when it looks like U.S. citizens might 
vindicate their rights under federal law and hold the wayward states 
accountable, the DREAM offers the offending states a pardon. As I will 
explain, the DREAM Act would not only take away the U.S. citizens' 
right to equal treatment, it would effectively close the courthouse 
door and deny them the ability to vindicate their rights in court.
                             the dream act
    One of the proposals included in comprehensive immigration 
legislation in both Houses of Congress this session is the Development, 
Relief and Education for Alien Minors Act (DREAM Act). The DREAM Act 
repeals 8 U.S.C. Sec. 1623--the 1996 federal law that prohibits any 
state from offering in-state tuition rates to illegal aliens, unless 
the state also offers in-state tuition rates to all U.S. citizens. On 
top of that, the DREAM Act offers a separate amnesty to illegal alien 
students. The DREAM Act provisions are not only bad policy, they are 
also profoundly unfair to U.S. citizens and lawful alien visitors who 
are being discriminated against by a handful of states that provide 
preferential treatment to illegal aliens.
    In addition to offering amnesty to aliens who have violated federal 
law, the DREAM act offers an amnesty to the state legislatures that 
have openly violated federal law. The DREAM act states, ``The repeal . 
. . shall take effect as if included in the enactment of the Illegal 
Immigration Reform and Immigrant Responsibility Act of 1996.'' In other 
words, it is a retroactive repeal--as if the 1996 law never happened. 
In this way, the Senate bill expressly shields those states from 
liability for their past violations of federal law.
    This is no accidental turn of phrase. This retroactive repeal was 
inserted as a direct response to the lawsuits challenging the states 
that violated the 1996 federal law. In the California case, the legal 
challenge is a class action lawsuit on behalf of all U.S. citizens 
whose federal statutory rights have been violated. Those U.S. citizens 
are suing to recover the extra tuition that they paid, over and above 
the tuition charged to illegal aliens. The DREAM Act provisions of the 
Senate Bill are specifically designed to take away this federal 
statutory right from U.S. citizens.
    On top of this insult to the rule of law, the DREAM Act creates a 
massive independent amnesty in addition to the even larger amnesty that 
S.B. 2611 would confer. The amnesty presents a wide open path to 
citizenship for any alien who entered the country before the age of 16 
and who has been in the country for at least five years. The guiding 
notion is: the longer you have violated federal law, the better.
    Beyond that, all the alien needs is a high school diploma or a GED 
earned in the United States. Alternatively, he need only persuade an 
institution of higher education in the United States--any community 
college, technical school, or college--to admit him.
    The DREAM Act abandons any pretense of ``temporary status'' for the 
illegal aliens who apply. Instead, all amnesty recipients are awarded 
lawful permanent resident (green card) status. The only caveat is that 
alien's status is considered ``conditional'' for the first six years. 
In order to move on to the normal green card, the alien need only 
obtain any degree from an institution of higher education, complete two 
years toward a bachelor's degree, or show that doing so would present a 
hardship to himself or his family members. And of course, the alien may 
thereafter use his lawful permanent resident status to bring in family 
members and may seek citizenship.
    Furthermore, the DREAM Act makes it absurdly easy for just about 
any illegal--even one who does not qualify for the amnesty--to evade 
the law. Once an illegal alien files an application--any application, 
no matter how implausible--the federal government is prohibited from 
deporting him Moreover, with few exceptions, federal officers are 
prohibited from either using information from the application to deport 
the alien or sharing that information with another federal agency, 
under the threat of a fine of up to $10,000.
    Thus, an alien's admission that he has violated federal immigration 
law cannot be used against him--even if he never had any chance of 
qualifying for the DREAM Act amnesty in the first place. The DREAM Act 
also makes illegal aliens eligible for various federal student loans 
and work-study programs.
    The DREAM Act is a remarkably bad piece of legislation on many 
levels. But the most fundamental issue that it raises is the relation 
of the states to the federal government. Ten states have created a 
twenty-first century version of the nullification movement--defying 
federal law simply because they don't like what the majority in 
Congress decided. In so doing, they have challenged the basic structure 
of our Republic. The DREAM Act would pardon this offense and, in so 
doing, would encourage states to defy federal law in the future.
    One thing that we have learned in the struggle to enforce our 
nation's immigration laws is that states cannot be allowed to undermine 
the efforts of the federal government to enforce the law. The rule of 
law can be restored only if all levels of government are working in 
concert to uphold it.

    Ms. Lofgren. Thanks to all the panelists for your 
testimony. We will now begin our questions, and I am going to 
turn first to the Chairman of the full Committee, Mr. John 
Conyers, to begin the questioning. Mr. Conyers.
    Mr. Conyers. I thank the witnesses for being here. Are we 
operating here? Testing. This should be better.
    I wasn't intending on discussing this question, but 
Attorney General Ashcroft's former adviser has raised a point 
that I don't remember any of the three previous witnesses 
making in terms of the differentiation in tuition payments. Now 
under the DREAM Act we would fix this by creating the legal 
status that would make moot the issue of in-state tuition.
    Now, can any of you three help us lift this question up to 
balance the other side of this argument and put it in the kind 
of perspective that a hearing of this kind would require?
    Mr. Merisotis. I would briefly comment. My understanding of 
the DREAM Act is that it is a pretty common-sense, rational 
approach. What it does is repeal section 505 of the 1996 law, 
which effectively discouraged States from providing in-state 
tuition or other higher education benefits. Under that section 
505, States that provide a higher education benefit based on 
the residency of undocumented immigrants have to provide the 
same benefit to U.S. citizens in the same circumstances. What 
this simply does is not require States to provide the in-state 
tuition to undocumented students. It restores the decision to 
the States and leaves it up to those States rather than the 
Federal Government making a requirement.
    So I think that is the fundamental issue here, is that it 
is left to the States to make their own decision. That is my 
understanding of the most recent version of the law.
    Mr. Conyers. Well, I know the author is going to weigh in 
on this part of the discussion anyway. Let me just compliment 
Dr. Cameron, who lends a new perspective to the notion that 
somehow minority students don't have the desire or capacity for 
math and engineering subjects. That is one that is slow to die, 
and I sometimes think that it is a sort of a self-perpetuating 
inhibition, don't you, Dr. Cameron?
    Mr. Cameron. It is interesting you bring that point up. In 
our robotics competition we really compete in what is called 
the Chairman's Award, and it is, ``what have you done for our 
community?'' And the kids, quote, have to brag about themselves 
and how they are better really than a thousand other high 
schools in science and engineering. And understand our 
community, the average per capita income is about $9,000. By 
the time the kids hit the eleventh grade, for most of the kids 
they have exceeded the education of their parents. And yet when 
they wrote their document to demonstrate what has happened in 
their school, they said statistically we look like a poor 
school, he said, but we are probably one of the richest schools 
around because we are helping the junior highs, we are helping 
the elementary schools. They are helping other high schools and 
other universities form teams. And they said when we look back 
at the advantages we have had over the last few years, we are 
one of the richest kids in the country. So--and they finished 
it by--it is not that we can beat MIT. That is not what we 
learned. We learned not to listen to people and not to beat 
ourselves. And you are exactly right. It is a self-perception.
    Mr. Conyers. What else can we do since we don't have the 
benefit of your presence across the country or the institution? 
How do we begin to develop this overcoming of this reluctance? 
And of course, it is a national phenomenon, too, when we 
measure engineers and scientists at the national level. I think 
China is producing 8 or 10 times as many engineers as we are. 
At Wayne State University in Detroit, this comes up all the 
time.
    Mr. Cameron. I think it is a cultural phenomena. In the 
United States, over the last 40 or 50 years, we have become 
obsessed with entertainment and sports, and that is what our 
kids see. I honestly talked to a kid a week ago who spends 20 
hours a week bouncing that basketball and honestly believes he 
will have a career in the NBA. If he spent a fraction of that 
time on his math and science. When we do high schools, we ask 
kids name an inventor, and they start raising their hands, who 
is alive, and the hands go down. And if you asked for a woman 
or a minority, nobody knows any of them.
    We hold up to our kids by our culture, what is important to 
us. We celebrate what is important. And you don't see math and 
science. That is why the first robotics program and this 
hearing and our kids need to hear that, and it is not an 
immigration issue. That is a desperate issue for our country 
right now.
    Mr. Conyers. I didn't know--I have got two young boys. I 
didn't know you were going to get this personal in my family, 
Dr. Cameron, but you did.
    Thank you.
    Ms. Lofgren. Thank you, Mr. Chairman.
    I turn to the gentleman from California, Mr. Lungren, for 5 
minutes.
    Mr. Lungren. Is this working? Hello? All right.
    Ms. Lofgren. The gentleman is recognized for 5 minutes.
    Mr. Lungren. Mr. Green, I paid for this microphone.
    A lot of us aren't old enough to recognize that.
    Ms. Furchtgott-Roth, I would just have to tell you I am one 
of those ones who wants to go to comprehensive legislation, but 
sometimes the witnesses are making it tough for me to stay 
there. In your comments, you mentioned the difference between 
you and others as merely being the difference between a piece 
of paper. Isn't citizenship more than just a piece of paper? I 
mean, I have heard some of this testimony that just the 
difference is that somebody has a piece of paper and somebody 
doesn't.
    Should we concerned about the depreciation of the value of 
citizenship in our country when we talk about immigration 
policy?
    Ms. Furchtgott-Roth. Actually, that wasn't me that 
mentioned the difference was only a piece of paper.
    Mr. Lungren. Well, I heard you say--well, I let the record 
stand for itself, but you were referring to the fact that you 
had a piece of paper and others didn't and that was different.
    I think we ought to be very careful about depreciating the 
value of citizenship here.
    Dr. Cameron, you mentioned at Carl Hayden High School, 60 
to 80 percent of the students are undocumented, at least that 
is in your written testimony. That is not a situation that we 
could allow in this country throughout the country; is it?
    Mr. Cameron. Are you asking if at Carl Hayden perhaps the 
percentages are higher than they are in the rest of the----
    Mr. Lungren. No. I am just asking you. You stated that as a 
fact as you were talking about how well the students are doing, 
but isn't that part of the concern of what we should do here 
that we couldn't possibly have a country in which 60 to 80 
percent of the students at every high school are not 
documented. We do need to have some law which will prevent that 
from occurring, don't you agree?
    Mr. Cameron. Oh, absolutely. And I believe we have those 
laws currently.
    Mr. Lungren. Well, they obviously aren't working, are they?
    Mr. Cameron. They are not working in a large portion of the 
United States especially in the Southwest.
    In Arizona, there are about 500,000 undocumented people in 
Arizona, and the State's population is 6 million. So that means 
almost 10 percent of Arizona is undocumented.
    Mr. Lungren. So you would suggest that we do have to do 
something about controlling our borders.
    Mr. Cameron. We obviously have to get a handle on our 
immigration. Absolutely.
    Mr. Lungren. So it is more than just a question of the 
people who are here illegally being educated and we do a good 
job of educating them and, therefore, we should give them a 
benefit that is denied students who are citizens but are out-
of-state, wouldn't you agree?
    Mr. Cameron. In the public school system, any child that 
lives in the public school neighborhood is----
    Mr. Lungren. Aren't we talking about public education here?
    Mr. Cameron. At the university level, I think by merit--
well, let me put it this way: In the graduate levels of 
engineering across the United States, 50 percent of the people 
in the masters and the Ph.D. Programs are international 
students.
    Mr. Lungren. Let us talk about undergraduates.
    We have a Member of Congress, Mr. Bilbray, who left his 
place for a while, had his family here while he was a Member of 
Congress, one of his children attended high school here, 
attempted to go to a California State college or university and 
was charged out-of-state tuition.
    You wouldn't think that is fair, would you?
    Mr. Cameron. You are really talking to the wrong person 
because I haven't changed States, but in Arizona, if you 
graduated from a high school in Arizona and you could show 
residency in the State for the last year or two, you would have 
in-state tuition.
    Mr. Lungren. I am trying to show you why we have a real 
difficulty in putting the bill together because there are 
people who do think that is unfair. Congressman Bilbray being 
charged for out-of-state tuition for his child and yet children 
in California who are here illegally having in-state.
    This is a very difficult issue that we have to deal with, 
and I appreciate your comments and I appreciate the tremendous 
academic achievement of the young people you are talking about.
    But again, I go back to the question of what we pass, at 
least I think we have an obligation of thinking about the 
consequences of what we pass, whether or not it leads to a 
situation in which we have more schools that have 60 to 80 
percent of undocumented aliens versus less.
    When I was here back in the 1970's and 1980's, I said if we 
don't get this right, if we don't solve the illegal immigration 
problem now, it won't just be a regional problem. It will be a 
national problem. And now it is, and that is one of the 
concerns that I have.
    And Mr. Merisotis, I appreciate your comments on how 
difficult it is for a lot of students. I would just say my wife 
is the first person to graduate from 8th grade in her family.
    Mr. Merisotis. Me as well.
    Mr. Lungren. No one had even thought about going to college 
in her family. Her dad died when she was young, her mother was 
on Social Security. My wife went to college because Social 
Security gave an additional grant to the family if she stayed 
in college.
    There are a lot of people in difficult situations in this 
country who are here legally, and so I am not sure that that is 
the dispersity we ought to be looking at. We ought to be 
evaluating this ``yes'' on ultimate fairness. It seems to me 
what is best for the United States, but also the long-term 
consequences of what we do.
    Thank you, Madam Chair.
    Ms. Lofgren. The gentleman's time has expired.
    I turn now to the gentleman from California, Mr. Berman.
    Mr. Berman. Assume nothing happens, Dr. Cameron, in 
Congress. Tell me the--describe the future for the 60 to 80 
percent of the schools, students who are undocumented.
    Mr. Cameron. Predicting the future, of course, is a little 
difficult.
    First of all, understand if you are 16-years old, I try to 
put myself in the minds of some of these kids. If I were 16 
years old and I was a sophomore and I realized I don't get a 
driver's license, which is the badge of adulthood, I am not 
going to get a Social Security number and, frankly, I am not 
really going to get a job. I am not going to go to college. Why 
am I in high school? I can get a job now at 16, and a lot of 
16-year-olds do. I think I would be very tempted to drop out of 
school because what is the point of getting a high school 
education? And yet most of them do graduate. They do get a high 
school diploma.
    So if the DREAM Act is not passed, will we see an increase 
in the drop-out rate? I would think we would. But they are not 
going to leave. They may drop out of school, but they are not 
going to drop out of Phoenix or Arizona or the United States. 
They are going to get married. They are going to have children 
who will be citizens. They are going to live here until they 
are old and can't work anymore. They will the not be part of 
the safety net. They won't be getting Medicare. They won't be 
getting the social services except for medical help in an 
emergency. And these people are going to live here for the rest 
of their lives.
    So what will happen to them? I don't know. But look at what 
will happen to us. We will have lost one of the important 
assets of our country: Young, intelligent people who get 
educated, join the military, they contribute to our society and 
as they grow older, they produce more and pass that on to their 
children.
    Mr. Berman. Great. Thank you.
    Mr. Kobach. Here I become a witness.
    You write in your prepared testimony in effect the DREAM 
Act, which I got the sense of from the, quote, anecdotal story 
in and around 1999, and introduced for the first time in 2001, 
repeal--you correctly described that it repeals that provision 
of the 1996 law, that I might point out for the record I didn't 
vote for.
    You said this is no accidental turn of phrase. This 
retroactive repeal was inserted as a direct response to the 
lawsuits, in parenthesis, brought by you. Challenging the 
States that violated the 1996 Federal law.
    Wrong. I didn't know about those lawsuits because they 
weren't brought until 2004 and 2005. I did it because the 
stories I heard laid out a future that these witnesses have 
described, what are we losing by this situation, what is the 
country losing, what is happening to them, what is their 
motivation to continue to excel in facing the brick wall that 
they would face under the current situation.
    So I just want to correct for the record. It was--it wasn't 
done because of your lawsuits. It was done before your 
lawsuits. And what happened to your lawsuit in Kansas?
    Mr. Kobach. Back to what you said first about----
    Mr. Berman. First of all, let us answer the question.
    Mr. Kobach. I would also like to respond to the language of 
the statute, if I might. The lawsuit in Kansas was--the 
plaintiffs were--it was dismissed on the basis of standing and 
private right of action. The judge never got to the merits.
    Mr. Berman. And it is on appeal.
    Mr. Kobach. And the question of standing is on appeal 
before the Tenth Circuit Court of Appeals.
    Mr. Berman. What happened to the lawsuit in California?
    Mr. Kobach. The judge in Kansasnever got to the question of 
whether the States were violating Federal law. The lawsuit in 
California was brought in a State county court. The judge there 
had basically the mirror image opinion. He said that the 
students do have standing and do not need a private right of 
action, but then, in sort of a three-sentence summary, he said 
but we don't think the States are violating the law, and 
basically kicked it on to the appeals court.
    Mr. Berman. The States aren't saying we are going to give 
undocumented students in-state tuition. The States are saying 
we are giving people who live in our State and graduate from 
high school in-state tuition.
    Mr. Kobach. But only if you are unlawfully present.
    Mr. Berman. No. Because I know of some lawfully present in-
state residents who are getting in-state tuition.
    Mr. Kobach. And those are the issues on dispute in the 
court.
    But I might add the labeling about the DREAM Act. As you 
know, it has gone through several versions now. We are on 
probably version 4.0 at this point. So if I was incorrect in 
stating that the retroactive repeal came in the original 
version, I apologize.\1\ I thought it came in the 2006 version.
---------------------------------------------------------------------------
    \1\ As submitted for clarification by Dr. Kobach, the retroactive 
repeal was not in the original 2001 version of the DREAM Act. It was 
added to the 2003 version and subsequent versions of the DREAM Act.
---------------------------------------------------------------------------
    Ms. Lofgren. The gentleman's time has expired, and the 
correction is noted for the record. The Ranking Member has 
returned. Would you like to take--go to Mr. Gohmert.
    Mr. Gohmert. Thank you, Madam Chairman.
    Madam Chairman, this has been an interesting hearing. You 
have called a number of very helpful and informative hearings, 
and we appreciate that.
    And I, for whoever is allowing some microphones to work and 
others not to, I appreciate the fact that mine apparently is.
    But I was reading in a hearing Professor Kobach's 
statement, and my friend, Mr. Berman, was getting into this. 
But it is interesting, the paradox here. Apparently, and I 
hadn't thought of it in these terms until your comments, but 
this provides an amnesty bill for States, I guess is one way of 
looking at it.
    Mr. Berman. Would the gentleman yield?
    Mr. Gohmert. Certainly.
    Mr. Berman. Or you could view it as repealing a bad law.
    Mr. Gohmert. Which provides amnesty for those who were 
violating the bad law from that perspective.
    But in any event, thank you.
    One of the things that drove me off the bench and to run 
for Congress was something that broke my heart, and that was I 
was seeing people who were spurred into activity that lead them 
into a rut they couldn't seem to get out of. I know back in the 
1960's, Congress had the best of intentions. They saw single 
women who had children with no help financially from deadbeat 
dad's. So the answer they felt like let us help them. These 
people need help. They deserve help. Let us give them a check 
for every child they have out of wedlock. 40 years later, we 
have gotten what we paid for.
    The old adage ``the power to tax is the power to destroy'' 
I think is true. The power to reward is also power to create or 
increase.
    In terms of what we do as a Congress, we really have to 
look at the long-term effects. If we make something financially 
advantageous than normally that is going to create more of the 
condition that is made more financially advantageous. No matter 
how well meaning, how well intentioned. If one makes an 
activity, financially more rewarding, you are going to get more 
of that activity. That is the nature of the human.
    So I am struggling with this, and it looks like, you know, 
when we hear the circumstances of these three wonderful young 
people who do touch my heart, I keep coming back, though, let 
us keep things in perspective.
    What are we going to reward, what are we going to encourage 
by legislation, what are we going to create for the future by 
rewarding things today?
    So those are the things that perplex me. Each of your 
testimony, both written and oral, has been helpful.
    And I thank you and yield back, Madam Chairwoman.
    Ms. Lofgren. The gentleman yields back.
    I will recognize the Ranking Member.
    Mr. King. Thank you, Madam Chair. I am glad to see that----
    Mr. Gohmert. Steve King, come on down.
    Ms. Lofgren. We will restart your 5 minutes when you find 
your microphone.
    Mr. Ranking Member.
    Isn't anyone on House Administration here, Dan?
    Mr. King. Okay. Madam Chair, I think you can activate that 
clock.
    I thank the witnesses for your testimony.
    I read through most of it, heard some of it, had to come in 
and out so there are some gaps in my uptake here, too.
    But it occurs to me this: On directing, you know, in a way, 
Ms. Roth's testimony, and you talked about the shortage of 
labor that we have, and certainly I agree that our highly 
skilled labor, there is something we can do there to enhance 
our economy.
    But let me propose this analogy to you and to the rest of 
the witnesses there. And that is just say imagine, here we are, 
the United State of America, 300 million people, imagine this, 
we are all in this together, aren't we? So we have to work 
together like a family in a way. And we have some people taking 
care of the children, some people taking care of the health 
care, some people going off to work, others taking care of 
things at home, some are educated, some retired. Kind of like a 
multi-general family, the United State of America.
    Now, imagine all 300 million of us in this huge family 
being in a giant clipper ship. Some riding in steerage, some up 
in their state rooms, depending upon their means, some down 
there pulling on the oars, some trimming the sails, some taking 
care of charting our course, which I think Congress is doing. 
And an argument going up on the bridge that we need more labor, 
we need more people to trim the sails and pull on the oars, 
where are we going to get them?
    The President and Senator Kennedy and those on that side 
argue that we ought to pull off over on to this continent 
called Amnesty Land and load up as many as we can, because 
seven out of every 12 will work, and the other five go down in 
the steerage to take place with the 156 million that are 
passengers right now, in this giant clipper ship, America.
    The other side of the argument is why don't we go down to 
steerage where there are those people that are riding along 
that are passengers, the 156 million and just recruit just one 
out of 10 of them, and have them come up and help us up here on 
deck so we can sail this ship efficiently.
    Now if we take on too many passengers, this ships sinks. If 
we take on too many that are riding down in steerage, there are 
too many up in the state room for that matter, we can't 
navigate because we sink lower and lower in the water.
    So if we are going to chart this course down the rule of 
law, and if we are going to be a prosperous Nation, and the 
statement I will say is that the success of a Nation is 
directly proportional to the average individual productivity of 
each of its people, citizens or not, inside the border of the 
United State.
    So wouldn't we want to enhance that productivity of the 
average citizen, wouldn't we want to go down there into 
steerage and recruit one out of 10 of those people? One out of 
10 of those 69 million that are of working age and just simply 
not in the workforce rather than pull off over to Amnesty Land 
and load up a bunch of people, many of whom are illiterate in 
their own language and unskilled, and we know they can't 
contribute to this economy, not in this next generation or the 
next.
    Now God love them all. But this ships sinks. We can't take 
on 6.3 billion, so how would you resolve that if you on the 
bridge and were involved in that debate?
    Ms. Furchtgott-Roth. This is a case where anecdote and 
economic data come together. We have 66 percent labor force 
participation rate. We have a 4.5 percent unemployment rate. 
There are jobs for everybody who wants.
    In your ship example, the people who aren't rowing, the 
people who aren't working, aren't doing so because they want 
to. They have chosen to do other things.
    On the other hand, we have people coming from other things 
countries who want to do a lot of these jobs. There are a lot 
of jobs that are built into the high skill area and very low-
skill areas that Americans don't want to do.
    Mr. King. Do you acknowledge that everyone who comes here 
doesn't go to work?
    Ms. Furchtgott-Roth. I trust everyone who comes here wants 
to work. Immigrants who come here want to work.
    Mr. King. 5 out of 12 are not working who come here. Do you 
acknowledge that?
    Ms. Furchtgott-Roth. The unemployment rates of immigrants 
is lower than that than native-born American workers.
    Mr. King. Do you agree with that statistic that five out of 
12 are not working, that seven out of 12 are of the immigrants 
that come here? You don't get 100 percent participation rate. I 
think you said they all want to work. I don't think we can 
actually say that and be objective about the facts.
    Ms. Furchtgott-Roth. We can objectively say the 
unemployment rate that our foreign-born workers is lower than 
the unemployment rate for native-born workers.
    Mr. King. What is the difference in that percentage, can 
you tell me?
    Ms. Furchtgott-Roth. It is probably about half a percentage 
point right now.
    Mr. King. You can say that, but when you look at that 
objectively, it is very similar.
    Ms. Furchtgott-Roth. It has varied over time, but when you 
have a 4.5 percent unemployment rate, half a percentage point 
is very significant.
    Mr. King. Would you take the position that you are only 
limited when it comes to expanding our unemployment base in 
this country to hire in from the unemployed, or would you agree 
that there are, as I said, 69 million people who are simply not 
in the workforce, a small percentage of them are part of the 
unemployment, around 6 million or so. The balance of that are 
people who are not working because they haven't been offered 
something that causes them to go to work. They haven't been bid 
for their services.
    Would you agree to that?
    Ms. Furchtgott-Roth. No, I wouldn't.
    I would say people who are not participating in the labor 
force right now in the United State are not participating 
because they choose not to participate.
    Mr. King. Would you disagree with my statistics?
    Ms. Furchtgott-Roth. You would have to cite the precise 
statistics.
    Mr. King. U.S. Department of Labor.
    Ms. Furchtgott-Roth. I would say that your interpretation 
that the people who are not participating in the workforce, we 
only have, as I said, 66 percent participation right now. The 
people who are not participating are doing so out of choice, 
not because they are discouraged workers. The Bureau of Labor 
Statistics also produces data on discouraged workers.
    Mr. King. So that is also true if they are illegal 
immigrants?
    I am sorry. We have run out of time.
    And I yield my time back.
    Ms. Lofgren. The gentleman's time has expired.
    And I will take my brief time for questions at this point.
    I think this has been a very interesting panel, and I know 
I won't have a chance to ask all my questions, but Ms. 
Furchtgott-Roth, would you say, I mean, let us just take a look 
at the three young woman here who have gotten their education 
as an example. Is there an economic downside to America to 
allowing them to fully participate with their education that 
you identify for us?
    Ms. Furchtgott-Roth. On the contrary.
    There is an economic upside. We need more workers. And we 
need more skilled workers, and we also, by the way, need more 
unskilled workers. Immigrants, in general, tend to be very 
highly skilled, such as the ones who are behind me here and 
also low-skilled.
    Ms. Lofgren. We don't want the Ph.Ds picking the 
strawberries.
    Ms. Furchtgott-Roth. And Americans tend to have a bell-
shaped curve of skills where we do not have a lot of low-
skilled adult workers, and we don't have a lot of Americans who 
want to be Ph.Ds in science.
    Ms. Lofgren. I would note the figure we have is that 96 
percent of undocumented men in America are in the labor force 
because they have come to work.
    Thinking about you, too, Dr. Cameron, I went back to check 
my introduction. It says you are retired. That is so 
disappointing to me. I hope that is not true because what a 
phenomenal teacher you obviously are.
    Are you still participating in the robotics program?
    Mr. Cameron. Absolutely. I just don't get paid. I am one of 
the unemployed.
    Ms. Lofgren. I am a frequent observer of the first robotics 
competition in California, and one of the things that I have 
seen just transform schools, and especially including schools 
where, you know, the parents haven't gone to college, it is a 
working-class environment. I am the first in my family to go to 
college, for example.
    And I know that when one's parents have not gone to 
college, it is not that they don't want you to do well, it is 
just that sometimes they don't know all of the tricks of the 
trade. They don't know how to apply for things so you are 
trying to figure that out on your own.
    And robotics does something that is phenomenal in these 
schools. It gets young people focused on science and education 
and increases their self-confidence. And then at your school of 
students from families where the parents didn't go to college 
to beat MIT is really--I am sure they were very proud.
    How did it feel for those students that they--having beaten 
MIT, they weren't allowed to go beat them again in the 
competition in Canada?
    Mr. Cameron. Understand, it is a high school so you 
graduate seniors each year and they are replaced by freshman. 
So you don't have the same kids over 4 years.
    A lot of the kids kind of feel bad because they don't get 
their chance to compete.
    However, this year we are going--since it is ironic that 
the national underwater robotics competition, funded partially 
by the National Science Foundation, has been outsourced to 
Canada. So we figured there is not one in the United States.
    So we are holding the national underwater robotics 
championship in Chandler, Arizona, and there will be about a 
dozen schools there. So the kids might be a little bit 
disappointed that they are not playing in the game they played, 
but now they are holding their games. They are not just the 
engineers. They are the audio-visuals, the organizers----.
    Ms. Lofgren. We could use those audio-visual people here 
today.
    Mr. Cameron. So it escalates. So instead of being the 
players, now they are the participants and the organizers.
    Ms. Lofgren. I would like to say, and I know this has gone 
on for a long time, I am not going to go over my time.
    But that this has been an education for me here today to 
hear the testimony of professional people on the statistics and 
the experiences is important. And we have done a considerable 
amount of that in the last month. This is the 12th hearing that 
we have had.
    But in back of you--you can't see this because you are 
looking at the Committee--in back of you are sitting these 
phenomenal three young women who I am inspired by. And as we 
think through, Mr. Berman is right. We sort through policy, but 
policy must be informed by humanity. And I actually voted 
against the 1996 Act as well. I didn't think it was right for 
Congress to preempt the decision making of the States at that 
time. I still don't.
    But I also, just for the life of me, cannot see how America 
benefits if three women like these young women who have gotten 
their degrees, who love the United States, who said the Pledge 
of Allegiance over and over and again, who are ready to just 
take off, are not permitted to do so. I just don't see how our 
country is strengthened if we permit--if we don't permit that.
    And my time is expired.
    So I will, unless it is compelling, I will bring this 
hearing to a close noting that the record will be open for 5 
days, and Members may submit the questions for the record. If 
questions are forwarded to the witnesses, we would ask that you 
respond, if you can, as promptly as possible.
    I would like also to extend an invitation to everyone here 
today to attend our next hearing on comprehensive immigration 
reform. We will have one next Tuesday afternoon at 2 o'clock 
when we will hear perspectives on immigration reform from 
faith-based and immigrant communities.
    On Thursday at 9 in the morning next week, we will hear 
perspectives on immigration reform from members of the labor 
movement.
    And with that and with thanks, this hearing is adjourned.
    [Whereupon, at 11:35 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

   ``AP Impact: Immigration raids split families,'' by Monica Rhor, 
  Associated Press Writer, March 11, 2007, submitted by the Honorable 
                           Sheila Jackson Lee
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Prepared Statement of Marie-Theresa Hernandez, Ph.D., Associate 
Professor, Department of Modern and Classical Languages, World Cultures 
                 and Literatures, University of Houston
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               ATTACHMENT
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 ``New Estimates of Unauthorized Youth Eligible for Legal Status under 
           the DREAM Act,'' by the Migration Policy Institute
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
